No. 19-____

IN THE

Supreme Court of the United States
_________

REPUBLIC OF KAZAKHSTAN,
v.

Petitioner,

ANATOLIE STATI, GABRIEL STATI,
ASCOM GROUP, S.A., AND
TERRA RAF TRANS TRAIDING LTD.,
Respondents.
_________
Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
_________
PETITION FOR A WRIT OF CERTIORARI
_________
JONATHAN S. FRANKLIN
Counsel of Record
MATTHEW H. KIRTLAND
PETER B. SIEGAL
NORTON ROSE FULBRIGHT US LLP
799 9th Street NW, Suite 1000
Washington, DC 20001
(202) 662-0466
jonathan.franklin@
nortonrosefulbright.com
Counsel for Petitioner

QUESTION PRESENTED
Exercising a right guaranteed to it by the New York
Convention on the Recognition and Enforcement of
Foreign Arbitral Awards, the Republic of Kazakhstan
(“Kazakhstan”) sought to raise in the district court the
defense that a $498 million foreign arbitral award
against it was obtained by fraud and therefore its
recognition and enforcement by the district court
would violate United States public policy. Even
though Kazakhstan, a foreign sovereign, raised that
defense nearly two years before any ruling on the
confirmation petition, the district court deemed it
forfeited and refused to address it. The court of
appeals, agreeing with the finding of forfeiture,
affirmed. The effect of those decisions is to transform
the award into a final judgment of the United States
courts, and to make the courts of the United States an
instrument of the fraud. The question presented is:
Whether a district court may confirm a foreign
arbitral award that violates the long-established
public policy of the United States, merely because the
district court concludes after the fact that a fraudbased public policy defense should have been raised
earlier in the confirmation proceeding.

(i)

ii
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT
Petitioner is the Republic of Kazakhstan, appellant
below. The Republic of Kazakhstan is a sovereign
nation. The requirements of Rule 29.6 therefore do
not apply to it.
Respondents are Anatolie Stati, Gabriel Stati,
Ascom Group, S.A., and Terra Raf Trans Traiding Ltd.,
appellees below.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED..........................................i
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT ....................................... ii
TABLE OF AUTHORITIES ......................................vi
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 2
STATUTORY AND TREATY PROVISIONS ............ 2
INTRODUCTION ....................................................... 2
STATEMENT OF THE CASE ................................... 4
A. Factual Background ................................... 4
1. The Statis Begin Operating In
Kazakhstan ........................................... 4
2. The Statis Initiate Arbitration
And The Panel Issues Its Award .......... 5
B. Procedural History ..................................... 5
1. Initial Proceedings In The
District Court ........................................ 5
2. The District Court Refuses To
Permit Kazakhstan To Present
Its Public Policy Defense ...................... 6
a. The Evidence Of Fraud ................... 7
b. The English High Court’s
Findings ........................................... 9
c. The District Court’s Initial
Refusal To Permit Kazakhstan
To Present Its Defenses................. 12

iv
TABLE OF CONTENTS—Continued
Page
d. The District Court’s Waiver
Ruling And Confirmation
Order .............................................. 13
3. Proceedings In The Court Of
Appeals ................................................ 16
REASONS FOR GRANTING THE PETITION ...... 18
I. THE COURT SHOULD CONFIRM
THAT DISTRICT COURTS MAY NOT
DECLINE TO ADJUDICATE FRAUDBASED PUBLIC POLICY DEFENSES
UNDER THE NEW YORK
CONVENTION .............................................. 18
II. THIS CASE PRESENTS AN
IMPORTANT QUESTION OF
FEDERAL LAW THAT THIS COURT
SHOULD RESOLVE ..................................... 25
A. The Decision Below Undermines
Judicial Integrity In A Highly
Visible Case Of Exceptional
International Importance ........................ 25
B. This Court’s Review Is Necessary To
Clarify The Rules For Foreign
Sovereigns Litigating In The United
States Under The New York
Convention................................................ 28
C. This Case Presents An Excellent
Vehicle for Resolving An Important
Question Of International
Arbitration Law ........................................ 31

v
TABLE OF CONTENTS—Continued
Page
CONCLUSION ......................................................... 32
APPENDIX
Appendix A:

Judgment of the U.S. Court of
Appeals for the District Of
Columbia Circuit (Apr. 19, 2019) ... 1a

Appendix B:

Memorandum Opinion of the U.S.
District Court for the District of
Columbia (Mar. 23, 2018) ............... 7a

Appendix C:

Order of the U.S. District Court for
the District of Columbia (Mar. 23,
2018) .............................................. 46a

Appendix D:

Order of the U.S. District Court for
the District of Columbia (May 11,
2016) .............................................. 47a

Appendix E:

Per Curiam Order of the U.S.
Court of Appeals for the District Of
Columbia Circuit, en banc (June 4,
2019) .............................................. 53a

Appendix F:

Per Curiam Order of the U.S.
Court of Appeals for the District Of
Columbia Circuit (June 4, 2019) .. 55a

Appendix G:

New York Convention on the
Recognition and Enforcement of
Foreign Arbitral Awards, June 10,
1958, 330 U.N.T.S. 38 (Excerpt) .. 56a

Appendix H:

9 U.S.C. § 207 ............................... 58a

vi
TABLE OF AUTHORITIES
Page(s)
CASES:
Banco Nacional de Cuba v. Sabbatino,
376 U.S. 398 (1964) ........................................... 28
Bonar v. Dean Witter Reynolds, Inc., 835
F.2d 1378 (11th Cir. 1988).......................... 20, 30
Enron Nigeria Power Holding, Ltd. v.
Federal Republic of Nigeria, 844 F.3d
281 (D.C. Cir. 2016) ...................................passim
Hazel-Atlas Glass Co. v. HartfordEmpire Co., 322 U.S. 238 (1944) ...............passim
Hurd v. Hodge, 334 U.S. 24 (1948) ..............passim
I.U.B.A.C. Local Union No. 31 v.
Anastasi Bros. Corp., 600 F. Supp. 92
(S.D. Fla. 1984) ................................................. 21
Kaiser Steel Corp. v. Mullins, 455 U.S.
72 (1982) ............................................................ 19
Karaha Bodas Co. v. Perusahaan
Pertambangan Minyak Dan Gas Bumi
Negara, 364 F.3d 274 (5th Cir. 2004) ........ 20, 26
O.R. Sec., Inc. v. Prof'l Planning Assocs.,
Inc., 857 F.2d 742 (11th Cir. 1988) .................. 29
Oscanyan v. Arms Co., 103 U.S. 261
(1880) ........................................................... 18, 19
Productos Mercantiles E Industriales,
S.A. v. Faberge USA, Inc., 23 F.3d 41
(2d Cir. 1994) .................................................... 29
Republic of Iraq v. Beaty, 556 U.S. 848
(2009) ................................................................. 28
Shelley v. Kraemer, 334 U.S. 1 (1948) ................ 18

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Stati & Ors v. The Republic of
Kazakhstan, [2018] EWCA (Civ) 1896,
2018 WL 03777710 (Eng.) .......................... 11, 26
Stati & Ors v. The Republic of
Kazakhstan, [2018] EWHC (Comm)
1130, 2018 WL 02163653 (Eng.) ................ 11, 12
Stone v. Freeman, 298 N.Y. 268 (1948)............... 27
Sumitomo Shoji Am., Inc. v. Avaghano,
457 U.S. 176 (1982) ........................................... 28
TermoRio S.A. E.S.P. v. Electranta S.P.,
487 F.3d 928 (D.C. Cir. 2007) ........................... 29
United States v. Throckmorton, 98 U.S.
61 (1878) ............................................................ 19
Weinberger v. Rossi, 456 U.S. 25 (1982) ............. 28
STATUTES, RULES, LAWS, AND TREATIES:
9 U.S.C. § 207 ...............................................passim
28 U.S.C. § 1254(1) ................................................ 2
28 U.S.C. § 1782 .................................................... 6
Convention on the Recognition and
Enforcement of Foreign Arbitral
Awards, June 10, 1958, 330 U.N.T.S.
38 ................................................................passim
Energy Charter Treaty, Dec. 17, 1994,
2080 U.N.T.S. 95 ................................................. 3
Fed. R. Civ. P. 15(d) ............................................. 29
U.S. Const. art. VI ............................................... 30

viii
TABLE OF AUTHORITIES—Continued
Page(s)
OTHER AUTHORITIES:
CIA, Kazakhstan, The World Factbook
(last visited Aug. 22, 2019),
https://tinyurl.com/5ejoqz ................................... 2
Elaine Henry, et al., The Role of Related
Party Transaction in Fraudulent
Financial Reporting, 4 J. Forensic &
Inv. Accounting 186 (2012) ................................. 8
Kazakhstan, Explore Almaty (last visited
Aug. 22, 2019), www.almatykazakhstan.net/kazakhstan/ .............................. 2
Paige Long, Kazakhstan Leans on Fraud
Claims In Disputing $500M Award,
Law360 (Aug. 27, 2019),
https://www.law360.com/articles/11928
21/kazakhstan-leans-on-fraud-claimsin-disputing-500m-award ................................. 26
U.S. Dep’t of State, 2019 Investment
Climate Statements: Kazakhstan (July
11, 2019), https://tinyurl.com/yyflesf7................ 4

IN THE

Supreme Court of the United States
_________

No. 19-____
_________

REPUBLIC OF KAZAKHSTAN,
v.

Petitioner,

ANATOLIE STATI, GABRIEL STATI,
ASCOM GROUP, S.A., AND
TERRA RAF TRANS TRAIDING LTD.,
Respondents.
_________
Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
_________
PETITION FOR A WRIT OF CERTIORARI
_________
Kazakhstan respectfully petitions this Court for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the District of Columbia
Circuit.
OPINIONS BELOW
The judgment of the D.C. Circuit is unreported and
is reproduced at page 1a of the Appendix to this
petition (“App.”). The orders denying Kazakhstan’s
petition for panel rehearing and rehearing en banc are
unreported and reproduced at App. 53a-55a. The
opinion of the United States District Court for the

2
District of Columbia is reported at 302 F. Supp. 3d 187
and reproduced at App. 7a.
JURISDICTION
The judgment of the D.C. Circuit was entered on
April 19, 2019. App. 1a. The D.C. Circuit denied
Kazakhstan’s petitions for panel rehearing and
rehearing en banc on June 4, 2019. App. 53a-54a, 55a.
This Court has jurisdiction pursuant to 28 U.S.C.
§ 1254(1).
STATUTORY AND TREATY PROVISIONS
The pertinent text of the relevant treaty provision,
Article V of the Convention on the Recognition and
Enforcement of Foreign Arbitral Awards, Art. V, (the
“New York Convention”), June 10, 1958, 330 U.N.T.S.
38, and the relevant statutory provision, 9 U.S.C.
§ 207, are set forth in the Appendix at App. 56a-57a
and 58a, respectively.
INTRODUCTION
Kazakhstan is the world’s ninth largest country and
an important U.S. ally. A secular, constitutional
republic, Kazakhstan is Central Asia’s dominant
economic force, accounting for sixty percent of that
region’s gross domestic product. The majority of that
economic activity stems from Kazakhstan’s
substantial oil, gas, and mineral resources.1
Respondents (the “Statis”) are two Moldovan
multimillionaires, Anatolie and Gabriel Stati, and
companies they own. After investigating a report
from the President of Moldova that the Statis had
1 See generally CIA, Kazakhstan, The World Factbook (last

visited Aug. 22, 2019), https://tinyurl.com/5ejoqz; Kazakhstan,
Explore Almaty (last visited Aug. 22, 2019), www.almatykazakhstan.net/kazakhstan/.

3
illegally concealed profits and funneled Kazakh
earnings into investments in countries subject to U.N.
sanctions, Kazakhstan ultimately terminated their
oil-and-gas contracts. Respondents then initiated an
arbitration under the Energy Charter Treaty (“ECT”),
Dec. 17, 1994, 2080 U.N.T.S. 95, that resulted in a
$498 million award (the “Award”). The district court
and the court of appeals, purporting to apply the New
York Convention, summarily confirmed that award in
the orders below.
Those confirmation orders, however, contain a clear
legal error that requires this Court’s intervention.
While the confirmation proceeding was still pending
in the district court, Kazakhstan discovered that the
Statis obtained the Award by fraud. They falsely
inflated the value of their assets through sham,
concealed, related-party transactions and then used
that falsified information to dupe the tribunal into
granting them an inflated award. Confirming an
award obtained through fraud violates United States
public policy, but the district court deprived
Kazakhstan of its right, guaranteed by the New York
Convention and the Federal Arbitration Act (“FAA”),
to present this public policy defense. It held that
Kazakhstan had forfeited any such defense by setting
forth its specific evidence thirteen days too late—even
though the district court did not confirm the award
until nearly two years after that. The district court’s
holding, and the judgment of the court of appeals
affirming it, contradicts this Court’s precedent and
threatens the integrity and international reputation
of this Country’s judiciary. Certiorari or summary
reversal is therefore warranted to reaffirm that
United States courts cannot refuse to consider fraud-

4
based public policy defenses to the confirmation of
foreign arbitral awards.
STATEMENT OF THE CASE
A. Factual Background.
1. The
Statis
Kazakhstan.

Begin

Operating

In

Since the fall of the Soviet Union, Kazakhstan has
sought to use its substantial hydrocarbon deposits to
benefit its people, including by attracting foreign investment in its oil-and-gas industry. See U.S. Dep’t of
State, 2019 Investment Climate Statements: Kazakhstan (July 11, 2019), https://tinyurl.com/yyflesf7. In
the United States’ view, Kazakhstan is now “an attractive destination for [international] investors.” Id.
The Statis are among those who have tried to benefit
from this investment climate. Beginning in 1999,
they acquired two companies, Kazpolmunai (“KPM”)
and
Tolkynneftegas
(“TNG”),
and
obtained
Kazakhstan’s approval to explore and develop various
oil and gas fields in the country. JA41-44 ¶¶ 221-249.2
As part of their activities in Kazakhstan, the Statis
began construction in 2006 of a liquefied petroleum
gas plant (the “LPG Plant”). JA44 ¶ 250.
In 2008, Kazakhstan’s President received a letter
from the President of Moldova, the Statis’ home
country, reporting that they had not only concealed
profits in offshore accounts, but also funneled the
proceeds of their Kazakh operations into illegal
investments in rogue states and territories. JA47 ¶
291. Kazakhstan investigated, JA48 ¶ 296, and
eventually terminated KPM and TNG’s subsoil use
contracts, JA54 ¶ 611.
2 “JA” refers to the Joint Appendix filed in the D.C. Circuit.

5
2. The Statis Initiate Arbitration And The
Panel Issues Its Award.
Just five days after the contracts were terminated,
on July 26, 2010, the Statis filed a Request for
Arbitration (the “Request”) with the Stockholm
Chamber of Commerce (“SCC”), claiming that
Kazakhstan’s actions violated its obligations as a
signatory to the ECT. JA32 ¶ 6. The ECT provides
that under certain specified conditions, each signatory
consents to arbitrate energy-related disputes in
foreign tribunals. See generally ECT, art. 26(1)-(4).
The Arbitral Panel issued its Award on December
19, 2013. The Panel found that Kazakhstan had failed
to treat the Statis fairly and equitably, as required by
the ECT, JA64-67 ¶¶ 1085-95, and ordered
Kazakhstan to pay roughly $498 million in damages,
of which $199 million was compensation for the
unfinished LPG Plant, JA87 ¶¶ 1856-57, 1859. In the
arbitration, the Statis and their experts had expressly
urged the Arbitral Panel to value the LPG Plant, at
minimum, in the amount of a $199 million bid (the
“KMG Bid”) that the Statis had obtained from a stateowned entity called KMG. See, e.g., JA388 n.16.
Accepting this argument, the Panel awarded the
Statis $199 million in compensation for the LPG
Plant. JA81-82 ¶¶ 1746-48.
B. Procedural History.
1. Initial Proceedings
Court.

In

The

District

In September 2014, the Statis filed their Petition to
Confirm (the “Petition”), asking the district court to
recognize and confirm the Award under the New York
Convention, as implemented by the FAA. See JA1425. The Convention provides seven grounds on which

6
confirmation should be denied. App. 56a-57a. The
FAA in turn provides that a district court must deny
confirmation if “it finds one of the grounds for refusal
or deferral of recognition or enforcement of the award
specified in the [New York] Convention.” App. 58a.
In February 2015, Kazakhstan filed an opposition to
the Petition presenting proof of its then-known
defenses. Briefing on those defenses concluded on
May 26, 2015, with the submission of Kazakhstan’s
Sur-Reply. JA305-31.
2. The District Court Refuses To Permit
Kazakhstan To Present Its Public Policy
Defense.
After this initial briefing on the Petition was
complete, Kazakhstan discovered evidence that the
Statis obtained the Award by fraud. Specifically, in
the course of defending against the Statis efforts to
enforce the Award, Kazakhstan had petitioned the
U.S. District Court for the Southern District of New
York under 28 U.S.C. § 1782 for permission to
subpoena documents from a Stati business partner in
Kazakhstan that also had engaged in international
arbitration proceedings against the Statis.
See
JA713-14.
These other arbitration proceedings
overlapped in time with Statis’ arbitration against
Kazakhstan and concerned certain of the same issues,
including the valuation of the LPG Plant.
The Stati Parties intervened in the § 1782
proceedings and raised numerous objections in an
effort to prevent Kazakhstan from obtaining this
evidence. The district court rejected the Statis’
objections,
thus
providing
Kazakhstan
the
opportunity to begin to obtain the documents showing
that the Statis obtained the Award by fraud. JA341-

7
49. The documents revealed that the $199 million
valuation the Statis urged for the LPG Plant, which
the Panel had accepted, was the result of a fraudulent
conspiracy engaged in by the Statis. The discovery of
that evidence led to additional litigation around the
world, but ultimately, the district court refused to
permit Kazakhstan to present it.
a. The Evidence Of Fraud.
The evidence Kazakhstan obtained demonstrated
that, during construction of the LPG Plant, the Statis
engaged in sham transactions with Perkwood
Investments, a dormant shell company that the Statis
owned and controlled. See JA397 ¶ 61; JA430 ¶ 42.
Those transactions, which falsely inflated the LPG
Plant’s construction costs, included:


TNG’s “purchase” from Perkwood of $34.5
million worth of equipment for $93 million, which
overstated TNG’s costs by $58.5 million;3



The charging of another $30.9 million to TNG for
the very same equipment;4



TNG’s payment of an approximately $44 million
“management fee” to Perkwood that the Statis
later conceded was not a validly incurred
construction expense.5

In these sham transactions, the Statis made it falsely
appear that they had invested huge sums into the
LPG Plant so that they could unjustly enrich
themselves.
3 JA414; JA417-19 ¶¶ 3, 5-7, 9-10.
4 JA418 ¶ 10(2).
5 JA397-98 ¶¶ 60-62.

8
The Statis repeated the fraud in their financial
statements, both by including the overstated
construction costs and by hiding that Perkwood was a
related party. See JA430 ¶ 42 (“TNG’s audited
accounts for the years 2007-2009 do not disclose the
fact that Perkwood was a related party.”). Accounting
regulations typically require heightened scrutiny for
related-party transactions, precisely to prevent this
type of fraud.6
The Statis then used their falsified financial
statements to obtain the inflated bid for the LPG
Plant that they subsequently relied upon to dupe the
Panel into awarding them $199 million. In 2008, the
Statis retained an investment bank, Renaissance
Capital, to assist them in selling assets that included
the LPG Plant.
JA434-40.
Renaissance sent
prospective buyers an “Information Memorandum”
that included key information on the assets. Id. The
Memorandum said that the financial information it
contained—including the falsely inflated statements
of the LPG Plant construction costs—came from the
financial statements of Stati companies, including
TNG. JA438. It also pledged that those statements
could be relied upon because they were audited or
reviewed
by
reputable
auditors
applying
International Financial Reporting Standards. JA439.
KMG, the bidder whose valuation was the sole basis
for the Panel’s damages award for the LPG Plant,
6 See, e.g., Elaine Henry, et al., The Role of Related Party

Transaction in Fraudulent Financial Reporting, 4 J. Forensic &
Inv. Accounting 186, 187 (2012) (“Many high profile accounting
frauds in recent years * * * have involved related party
transactions * * * in some way, creating concern among
regulators and other market participants about the appropriate
monitoring and auditing of these transactions.”).

9
made its $199 million bid in express reliance upon the
falsified information the Information Memorandum
contained. See JA444 (“In formulating our Indicative
Offer, we have relied upon the information contained
in the Information Memorandum and certain other
publicly available information.”).
The Statis then relied upon their fraud during the
arbitration by claiming that the LPG Plant should be
valued by reference to the fraudulently obtained KMG
Bid. JA388 n.16. The Panel accepted this argument
and awarded compensation to the Stati for the LPG
Plant in the amount of $199 million. JA81-82 ¶¶
1746-48.
b. The English High Court’s Findings.
Litigation regarding the award’s validity has
proceeded in other countries, including Sweden and
England. After the documents exposing the fraud
came to light, Kazakhstan submitted them to Swedish
courts, asserting that they showed that confirmation
would violate Sweden’s public policy. The Swedish
court disagreed, finding that even if accepted as true,
the alleged fraudulent procurement of the arbitral
award would not violate Swedish public policy.
JA477-708; JA750-51. Thus, the Swedish courts
declined to make factual findings as to the extent or
materiality of the fraud. JA477-708; JA751.
The English courts, applying English public policy,
took the opposite view. After Kazakhstan discovered
the Statis’ fraud, the High Court of Justice (the
“English High Court”) permitted Kazakhstan to
submit evidence to support its request to amend its
defenses to show that the Award would contravene
English public policy because it was obtained by
fraud. Such a showing required Kazakhstan to prove

10
that the Statis had “deliberately and dishonestly
failed to disclose [material] in the arbitration” or
“made submissions * * * which deliberately and
dishonestly continued that concealment and misled
the tribunal,” and further that that conduct would
have had an “important influence on * * * the result
of the arbitration.” JA727 ¶ 11(4). Kazakhstan was
permitted to submit more than 2,200 pages of
documents and testimony evidencing the fraud. In
February 2017, the court held a two-day hearing in
which it carefully considered Kazakhstan’s contention
that the Award was the product of the Statis’ fraud.
Four months later, the court ruled in Kazakhstan’s
favor, finding that Kazakhstan had presented a prima
facie case that the Statis obtained the Award by fraud.
JA732 ¶ 37. The facts on which it relied included:


that the Statis conceded in the Swedish
proceeding that Perkwood was a Stati-related
company, despite having taken a contrary
position in the arbitration (JA731 ¶ 26);



that
related-party
transactions
between
Perkwood and TNG artificially inflated the LPG
Plant’s costs (JA731-32 ¶¶ 27-28, 30-32);



that the Statis had likely violated their discovery
obligations in the arbitration by failing to disclose the agreement with Perkwood (JA731 ¶ 29);



that the Statis had concealed the true
construction costs of the LPG Plant from their
auditors,
KMG,
Kazakhstan,
and—most
critically—the SCC Panel (JA732 ¶ 34);



that the KMG Bid states on its face that its
estimated value of the LPG Plant is based on
information contained in the Information
Memorandum, which was in turn “expressly

11
based” on KPM and TNG’s financial statements
(JA733-34 ¶¶ 40, 42); and


that, at the express invitation of the Statis and
their experts, the Panel relied exclusively on the
KMG Bid in valuing the LPG Plant (JA735
¶ 45-47).

Based on the foregoing, the English High Court
determined that “there [was] the necessary strength
of [a] prima facie case” that when the Statis “ask[ed]
the Tribunal to rely on the KMG Bid,” they committed
“a fraud on the [Panel].” JA735 ¶ 48. Thus, it
concluded, the fraud allegations needed be “examined
at a trial and decided on their merits” before a decision
on confirmation could be made. JA744 ¶¶ 92-93.
Shortly thereafter, however, the Statis sought to
dismiss their claim rather than face an adverse ruling
on the merits of the fraud allegations. The English
High Court declined. See Stati & Ors v. The Republic
of Kazakhstan, [2018] EWHC (Comm) 1130, 2018 WL
02163653 (Eng.), ¶¶ 60-67. It found the Statis’ claims
that they could not afford a trial and that they no
longer needed to confirm the award in England
incredible in light of their zealous continuation of
other enforcement actions elsewhere. Id. ¶¶ 19-24.
The English High Court instead found it likely that
the “real reason” for the Statis abrupt decision to drop
the confirmation action was that they did “not wish to
take the risk that the trial may lead to findings
against them and in favour of [Kazakhstan].” Id. ¶ 25.
Because the Statis were able to reverse that decision
on appeal, they ultimately did avoid a trial, but on the
condition that they give up all right to seek
enforcement of the Award in England. See Stati & Ors
v. The Republic of Kazakhstan, [2018] EWCA Civ
1896, 2018 WL 03777710 (Eng.), ¶ 67 (allowing

12
dismissal of Statis’ enforcement proceeding “on terms
* * * that the [Statis] give to the court the
undertakings offered by them”); Stati & Ors v. The
Republic of Kazakhstan, [2018] EWHC (Comm) 1130,
2018 WL 02163653 (Eng.), ¶ 47 (Statis seeking
dismissal under an “undertaking * * * that they will
not pursue further proceedings in England”).
c. The District Court’s Initial Refusal To
Permit Kazakhstan To Present Its
Fraud Defense.
In the district court, as in England, briefing on
Kazakhstan’s initial defenses to confirmation was
completed before Kazakhstan discovered the fraud.
Accordingly, on April 5, 2016, Kazakhstan moved for
leave to add new defenses arising from the Statis’
fraud, including that confirmation of the fraudulently
obtained Award would violate the public policy of the
United States. JA332-39; see App. 57a (New York
Convention, art. V(2)(b)). Kazakhstan told the court
that while it “ha[d] not completely unraveled the
totality” of the Statis’ wrongdoing, it “presently
underst[ood]” that they had “misrepresented the LPG
Plant construction costs for which they claimed
reimbursement in the SCC Arbitration.” JA335-37.
Kazakhstan stated that “the $199 million awarded to
[the Statis] for the LPG Plant in the SCC Arbitration
was a direct result of the fraud,” and explained that
the “supplemental filing” it wished to submit would
set forth “[t]he full details” of the Statis’ scheme and
its effect on the Award. JA337-38.
The Statis opposed the motion, arguing (among
other things) that Kazakhstan’s proposed pleading
would be “futile” because the Panel based its $199
million award for the LPG Plant on the KMG Bid,
which—in a continuation of the very strategy that

13
defrauded the SCC tribunal itself—the Statis falsely
asserted was neutral and independent. JA358-63. In
reply, Kazakhstan emphasized that the Statis’
contention was an improper attempt to dispute the
alleged facts and that, in any event, the fraud went
directly to the KMG Bid: “As will be shown in detail
by Kazakhstan in its proposed supplemental filing,
the Statis’ fraud infected the $199 million number
relied upon by the Tribunal.” JA370 (emphasis
added); see also JA370-71 (“Kazakhstan’s supplemental filing will show that the Statis submitted false
testimony and evidence to the SCC arbitration
tribunal, that this fraud directly resulted in the
$199 million award to the Statis for the LPG
Plant and that this $199 million is a material
component of the SCC award.”) (emphasis added).
Nevertheless, six days after Kazakhstan filed its
reply, the district court denied the motion for leave.
JA376-79. Without even permitting Kazakhstan to
present its proffered evidence, the court summarily
accepted the Statis’ argument, holding that any
supplemental filing regarding fraud would be “futile”
under Rule 15 of the Federal Rules of Civil Procedure,
because “it is clear that the arbitrators did not rely
upon the allegedly fraudulent evidence in reaching
their decision.” JA378. The district court further
reasoned that because the “issue ha[d] already been
presented to the Swedish authorities, it would not be
in the interest of justice to conduct a mini-trial on the
issue of fraud” in a United States court. JA379.
d. The District Court’s Waiver Ruling
And Confirmation Order.
Kazakhstan moved for reconsideration one week
later, on May 18, 2016. JA380-93. With its motion,
Kazakhstan submitted nearly 200 pages of evidence

14
supporting the assertions in its original motion
papers, showing the connection between the Statis’
fraud and the KMG Bid, and demonstrating that the
Statis had committed fraud on the Panel by urging it
to rely on the KMG Bid as a neutral and objective
measure of the value of the LPG Plant when, in fact,
it too had been obtained by fraud. See, e.g., JA388
n.16. Having thus demonstrated that the court erred
in concluding that amendment would have been futile,
Kazakhstan again requested that the court permit it
to present the full merits of that defense and
supporting evidence.
More than two months later, without having ruled
on the fully-briefed motion to reconsider, the district
court sua sponte stayed the case in deference to the
outcome of the Swedish proceedings. JA455-76. The
stay lasted more than a year, until November 2017.
In the interim, Kazakhstan apprised the district court
of the English High Court’s holding that Kazakhstan’s
evidence, when fully considered, established a prima
facie case that the Statis had obtained the Award by
fraud. JA709-45.
Then, in March 2018—four months after ending the
stay—the district court finally resolved Kazakhstan’s
motion for reconsideration and issued its final
judgment. App. 7a-45a. As to the fraud defense, the
district court acknowledged that both in its initial
motion for leave and on reconsideration, Kazakhstan
had asserted that the Statis “fraudulently and
materially misrepresented the LPG Plant construction costs for which they claimed reimbursement.”
App. 21a-22a. Nevertheless, the court refused to
consider the fraud defense on the merits, stating that
the motion for reconsideration relied on an “entirely
separate theory of fraud that [Kazakhstan] did not

15
seek leave to introduce” in its original filing. App.
22a-23a.
Specifically, the court believed that
Kazakhstan’s original motion had focused only on
“false sworn testimony and expert reports,” while its
reconsideration motion had argued that “the [KMG
Bid] was itself the product of fraud.” App. 21a-22a.7
That supposed change in Kazakhstan’s theory was
the basis of the court’s refusal to address the fraud
defense’s merits. Rather than address the merits, the
court held that Kazakhstan’s supposedly alternative
theory was forfeited for “the simple reason that
[Kazakhstan] did not [initially] present the facts it
now seeks to introduce.” App. 21a. “[B]ecause
[Kazakhstan] d[id] not claim that these facts were not
available to it at the time it filed its initial motion to
include additional defenses,” the district court went
on, “they are improperly raised now.” App. 21a. The
district court reiterated that point throughout its
order denying reconsideration, offering no findings as
to the merits of the fraud and no other grounds on
which reconsideration could alternatively have been
denied. See App. 21a-23a.8
7 In concluding that Kazakhstan’s theory had changed, the

district court did not consider the unlikelihood that Kazakhstan
could have developed a new theory (and compiled nearly 200
pages of documentary evidence supporting it) in the one week
between the district court’s denial of Kazakhstan’s motion and
the filing of Kazakhstan’s reconsideration request. In fact, the
documents presented in the reconsideration motion were just a
small portion of the “full details” of the fraud Kazakhstan had
promised to provide the Court in its initial motion. JA338.
8 The district court separately addressed whether its original

order should be reconsidered because it applied the wrong legal
standard to Kazakhstan’s initial motion for leave to present its
fraud defense. See App. 23a-27a. But that discussion did not

16
On the merits, the court rejected Kazakhstan’s other
defenses. The district court therefore confirmed the
Award, transforming it into a final, enforceable
judgment of a United States court. It did so without
even permitting Kazakhstan to present its evidence
demonstrating that the Award was procured by fraud.
And it did so even though Kazakhstan undisputedly
had presented both its theory of fraud and the
supporting evidence in its motion for reconsideration
filed 675 days—nearly two years—earlier, long
before the court ruled on the merits of the Petition.
3. Proceedings In The Court Of Appeals.
Kazakhstan appealed, arguing, inter alia, that the
district court erred with respect to the fraud-based
public policy defense. Kazakhstan argued that, even
accepting the district court’s reasoning that
Kazakhstan had presented new allegations in its
motion to reconsider, the district court was still
required to consider such a new fraud defense on the
merits. See D.C. Cir. Opening Br. 54-55 (regardless of
timeliness, confirmation of award tainted by fraud
would work manifest injustice); see also D.C. Cir.
Reply Br. 23-24 (filed Oct. 15, 2018) (same). 9 As
Kazakhstan explained, the district court erred by
converting the arbitral ruling into “a judgment of a
United
States
court
against
a
sovereign
nation * * * without even considering whether doing
so would further advance the Statis Parties’
fraud * * * .” D.C. Cir. Opening Br. 55. It further
noted the “substantial injustice of confirming as a U.S.
address the merits of Kazakhstan’s actual fraud defense
articulated in detail in Kazakhstan’s motion for reconsideration.
9 Kazakhstan also contested that it had it had changed

theories.

17
judgment a half-billion [dollar] award procured
against a foreign sovereign by fraud,” id. at 55-56, and
argued that it had an absolute right to present its
fraud defense. See D.C. Cir. Reply Br. 26-27.
At oral argument, Kazakhstan emphasized those
contentions, specifically citing and relying on a D.C.
Circuit case, Enron Nigeria Power Holding, Ltd. v.
Federal Republic of Nigeria, 844 F.3d 281 (D.C. Cir.
2016), for the proposition that, like subject-matter
jurisdiction, the fraud-based public policy defense
Kazakhstan sought to advance cannot be waived or
forfeited:
I would add * * * that the district court * * * cited
this court’s decision in Enron Nigeria * * * . One
thing that that case holds, Your Honor, is that a
defense under Article V of the New York
Convention, a public policy defense, * * * cannot be
waived and cannot be forfeited, and that the court
must always consider it, even for the first time on
appeal. The reason, the court held, is because the
court is otherwise becoming [a] tool of the fraud.
Oral Arg. at 9:58-10:34.
More than four months later, the court of appeals
affirmed in an unpublished, three-page order
containing less than a page of legal analysis. The
order devoted only a single sentence to the motion for
reconsideration and the facts it raised, stating “[w]e
further agree with the District Court that Kazakhstan
improperly presented new facts in its motion for
reconsideration that it had not introduced in its
original motion to supplement.” App. 5a-6a. The
panel did not mention, address, or attempt to refute
Kazakhstan’s contention that, even where present,
such untimeliness is irrelevant to a party’s right to

18
present, and the court’s independent duty to examine,
a fraud-based public policy defense to confirmation
raised long before any decision on the merits.
Kazakhstan sought rehearing, arguing that the
panel’s ruling disregarded binding precedent holding
that “‘because public policy violations implicate the
integrity of the enforcing court,’ parties ‘cannot waive’
or forfeit a fraud-based public policy defense to
confirmation of an international arbitral award.” Pet.
for Reh’g 1 (filed May 20, 2019) (quoting Enron
Nigeria, 844 F.3d at 287-89). Rehearing was denied.
App. 53a-54a, 55a.
REASONS FOR GRANTING THE PETITION
I. THE COURT SHOULD CONFIRM THAT
DISTRICT COURTS MAY NOT DECLINE
TO ADJUDICATE FRAUD-BASED PUBLIC
POLICY DEFENSES UNDER THE NEW
YORK CONVENTION.
More than a century ago, this Court held that a
court’s obligation not to enforce an agreement
“forbidden by * * * public policy * * * could not be
obviated or waived by any system of pleading, or even
by the express stipulation of the parties.” Oscanyan
v. Arms Co., 103 U.S. 261, 267 (1880). Rather, a public
policy defense is “one which the court itself was bound
to raise in the interest of the due administration of
justice.” Id. And more than 50 years ago, in Hurd v.
Hodge, 334 U.S. 24 (1948)—a companion case to the
Court’s landmark decision outlawing restrictive
covenants in Shelley v. Kraemer, 334 U.S. 1 (1948)—
the Court relied on Oscanyan to make clear that “[t]he
power of the federal courts to enforce the terms of
private agreements is at all times exercised subject
to the restrictions and limitations of the public policy

19
of the United States” and that “[w]here the
enforcement of private agreements would be violative
of that policy, it is the obligation of courts to refrain
from such exertions of judicial power.” Hurd, 334 U.S.
at 35-46 (citing, inter alia, Oscanyan, 103 U.S. 261)
(emphasis added).
The Court has never wavered from the view that
federal courts have an obligation to adjudicate public
policy defenses to enforcement of private agreements,
lest the courts themselves become a tool of illegality.
Thus, the Court in Kaiser Steel Corp. v. Mullins, 455
U.S. 72, 83-84 (1982), reversed a lower court decision
declining to adjudicate a public policy defense to
enforcement of an unlawful labor agreement. Quoting
and relying on Hurd, the Court held that “[i]t
is * * * well established * * * that a federal court has
a duty to determine whether a contract violates
federal law before enforcing it.” Id. at 83-84 (citing
Hurd, 334 U.S. at 34-35) (emphasis added).
That duty is all the more important here, where the
Statis asked the district court to confirm an arbitral
award allegedly infected by fraud and thereby
transform the award into a binding judgment of a
United States court. This Court recognized long ago
that federal courts have inherent power to protect
themselves from becoming instruments of fraud.
Federal courts are free to reopen cases after judgment
on the basis of “after-discovered fraud, regardless of
the term of their entry.” Hazel-Atlas Glass Co. v.
Hartford-Empire Co., 322 U.S. 238, 244 (1944). That
is because fraud against courts “tamper[s] with the
administration of justice” and therefore “involves far
more than an injury to a single litigant.” Id. at 246;
see also United States v. Throckmorton, 98 U.S. 61, 66
(1878) (recognizing doctrine that “[f]raud vitiates

20
every thing, and a judgment equally with a contract;
that is, a judgment obtained by fraud.”) (quotation
omitted).
Such fraud is “a wrong against the
institutions set up to protect and safeguard the
public.” Hazel-Atlas, 322 U.S. at 246. In such cases,
a court has not only the power but the duty to act. See
id. at 249-50 (emphasis added).
That duty applies squarely to the confirmation
proceeding at issue here. Under the FAA, a district
court must deny confirmation if “it finds one of the
grounds for refusal or deferral of recognition or
enforcement of the award specified in the [New York]
Convention.” App. 58a. Article V(2)(b) of the New
York convention expressly provides that recognition
or enforcement of an arbitral award should be refused
if doing so “would be contrary to the public policy” of
the country where enforcement is sought. App. 57a.
That exception to enforcement enshrines into law the
“fundamental equitable principle” that courts may not
“be[] made parties to fraud or other criminal acts.”
Enron Nigeria, 844 F.3d at 287; see also Karaha Bodas
Co. v. Perusahaan Pertambangan Minyak Dan Gas
Bumi Negara, 364 F.3d 274, 306 (5th Cir. 2004)
(identifying elements of fraud-based public-policy
defense to enforcement under New York Convention);
Bonar v. Dean Witter Reynolds, Inc., 835 F.2d 1378,
1385-86 (11th Cir. 1988) (refusing to enforce domestic
award under FAA due to fraud on the arbitral panel).
Accordingly, and because the defense is designed to
protect the court’s own “integrity,” no litigant can
“waive an Article V(2)(b) public policy defense to
enforcement of [an] [a]ward.” Enron Nigeria, 844 F.3d
at 288; see also id. (“[P]arties cannot waive their rights
under Article V(2)(b) because public policy violations
implicate the integrity of the enforcing court.”) (citing

21
Hurd, 334 U.S. at 34-35; Restatement (Third) of the
U.S. Law of Int’l Commercial Arbitration § 2-16(b)
(Am. Law. Inst., Tentative Draft No. 4, 2015)). To
permit such waiver would “elevat[e] the parties’”
conduct “above the fundamental need of the federal
courts to protect their own integrity.” Id.
The same principles establish that “forfeiture
cannot divest the court of its duty to resolve [a] public
policy question any more than waiver can.” Id. Thus,
irrespective of when a party raises a public policy
defense, “the court must * * * decide the issue” in
order to avoid entering a judgment that conflicts with
the public policy of the United States. Id. at 289
(emphasis added);10 see also Hazel-Atlas, 322 U.S. at
246 (court’s duty to preserve the “integrity of the
judicial process” need not “wait upon the diligence of
litigants”). Indeed, in Enron Nigeria, the court
considered a public policy defense even though (unlike
here) the defense was never raised in the trial court.
844 F.3d at 288.
The courts below contravened these principles. It is
undisputed that, at the very latest, Kazakhstan
squarely raised its fraud-based public policy
defense—and the evidence supporting it—in its
motion for reconsideration filed on May 18, 2016. Yet
the district court, summarily affirmed by the court of
appeals, held that Kazakhstan waived and forfeited
that defense by not (in the district court’s view)
raising it with sufficient clarity in Kazakhstan’s
initial motion, briefing on which was completed only
10 The principle is also accepted in the lower courts. See, e.g.,

I.U.B.A.C. Local Union No. 31 v. Anastasi Bros. Corp., 600 F.
Supp. 92, 95 (S.D. Fla. 1984) (holding that “a party cannot waive
the defense of illegality of the contract” in defending against
enforcement of an arbitration based on that contract).

22
thirteen days before the reconsideration motion. In
fact, the initial motion merely sought leave to present
Kazakhstan’s public policy defense and was not
intended to present that defense itself. But the courts
refused even to consider Kazakhstan’s extensive
evidence that the Award was obtained by fraud—
evidence the English High Court had earlier held
established a “prima facie” case of fraud. And they
refused to do so even though Kazakhstan had clearly
and squarely raised its fraud defense nearly two
years before any ruling on the Statis’ Petition to
confirm the allegedly fraudulently obtained Award.
Those holdings cannot be reconciled with this
Court’s clear precedents, dating back nearly 150
years, holding that federal courts have an unfailing
obligation to consider a public policy defense,
regardless of when it is raised, “because public policy
violations implicate the integrity of the enforcing
court” and implicate the “fundamental need of the
federal courts to protect their own integrity.” Enron
Nigeria, 544 F.3d at 288 (citing Hurd, 334 U.S. at 3435). It is therefore the “obligation of courts to refrain
from * * * exertions of judicial power” to enforce
agreements that violate public policy, Hurd, 334 U.S.
at 35 (emphasis added), just as it is the duty of courts
to refrain from being an instrument of fraud, HazelAtlas, 322 U.S. at 249-50.
The courts below wholly abdicated that obligation
and duty, set forth in the New York Convention and
the FAA, and confirmed by more than a century of
precedent. They allowed enforcement of a highprofile, half-billion-dollar award against an important
U.S. ally without even considering substantial
evidence, placed before the district court nearly two
years before enforcement, that the award was

23
procured by fraud. And they reached that result
because, on their reasoning, Kazakhstan initially
sought leave to present its fraud defense instead of
simply filing the defense without permission. App. 5a;
App. 21a-23a. In reaching that result, the courts
below effectively converted the judiciary of the United
States into an “instrument of fraud.”
It is no answer to argue that the courts below could
properly defer to foreign courts on this question. In
its order denying Kazakhstan’s motion for
reconsideration, the district court found that hearing
Kazakhstan’s defense was not “required by justice” in
part because the “Svea Court of Appeal heard and
rejected [Kazakhstan’s] fraud claims,” which, the
district court held, “len[t] force to [the court’s] view
that it would not be contrary to the public policy of the
United States” to enforce the Award. App. 28a-29a.
That view betrays a fundamental misunderstanding
of the U.S. courts’ role in addressing foreign arbitral
awards. The only “authorit[ies]” competent to assess
the public policy “in the country where recognition
and enforcement is sought,” App. 57a, were the
courts below. The district court could not validly
conclude the Award is not contrary to U.S. public
policy simply because the Svea Court of Appeals held
it did not violate Swedish public policy. Indeed, the
English High Court, applying the New York
Convention, properly rejected exactly that argument,
correctly holding that it had an obligation to
determine whether English public policy prohibited
enforcement of the Award regardless of what the
outcome would be under the public policy of Sweden.
As that court explained, “[r]elevant public policy can
and does differ from country to country.” JA742, ¶ 84.
Consequently, “the Swedish Court did not decide

24
whether under English law public policy required [the
court to refuse] the application to enforce the Award
in [England].” Id. Indeed, it could not have done so
because, as the English High Court explained,
“English public order must ultimately be a matter for
the English Court.” JA743 ¶ 87.
By refusing to conduct the same evaluation—
admitting Kazakhstan’s evidence and evaluating it
against the requirement of U.S. public policy—the
district court violated its obligations under the New
York Convention. Indeed, the court itself recognized
that “the legal standards to be applied” in Sweden and
the United States were different.
App. 28a.
Accordingly, to the extent the courts below deferred a
question of U.S. public policy to foreign courts
reviewing the Award, that deference was directly
contrary to the textual command contained in both
the treaty and the statute, and it should be reversed.
This Court’s review—or summary reversal—is
warranted to avoid having the judiciary become a tool
of the fraud. Kazakhstan does not seek to have this
Court, or the court of appeals, measure the merits of
its allegations and supporting evidence against U.S.
public policy in the first instance. Rather, it asks this
Court to confirm that the lower courts violated their
clear obligation to do so before transforming the
Award into a judgment of the United States.

25
II. THIS CASE PRESENTS AN IMPORTANT
QUESTION OF FEDERAL LAW THAT
THIS COURT SHOULD RESOLVE.
A. The Decision Below Undermines Judicial
Integrity In A Highly Visible Case Of
Exceptional International Importance.
This Court’s review is also warranted because, in
abandoning the longstanding legal principles set forth
above, the decisions below contravened this Court’s
precedents in a manner that threatens the reputation
of the federal courts. As noted, the district court
refused to consider the Article V(2)(b) defense that
was presented and substantiated in Kazakhstan’s
motion for reconsideration solely based on the court’s
conclusion that the defense was untimely, even
though it was unquestionably presented 675 days
before the district court ruled on the confirmation
petition. See App. 21a-23a. That finding then formed
the basis for the panel’s cursory affirmance. App. 5a6a. Those holdings, as noted, risk making the federal
courts an accomplice in the alleged fraud and,
consequently, of damaging their reputation in the
international community.
That risk is heightened in this case, because the
judiciaries of other countries have recognized
Kazakhstan’s right to present its public policy
defense. As noted, the English High Court, when
confronted with the evidence and argument
Kazakhstan sought to introduce below, found
Kazakhstan’s fraud defense compelling enough to
order a full trial on the merits. JA709-45. To reach
that result, Kazakhstan needed to establish a prima
facie case showing that the Statis deliberately
deceived the tribunal, that their fraud was
undetectable at the time it was committed, and that

26
their fraud would have influenced the proceedings
even if it may not have been outcome-determinative.
JA727-28, ¶¶ 11(4), 11(9)-(10). That standard is
indistinguishable from the one that would have
controlled in the courts below. See Karaha Bodas Co.,
364 F.3d at 306-07. And faced with a trial on the
merits under that very standard, the Statis instead
chose to dismiss their case on the condition that they
never again seek to enforce the Award in England.
See Stati & Ors, [2018] EWCA Civ 1896, 2018 WL
03777710 (Eng.), ¶ 67.
All courts in which the Stati Parties have attempted
to enforce the Award under the New York Convention,
other than courts in the United States, have allowed
Kazakhstan to present its fraud defense. A Dutch
court, for example, granted Kazakhstan a stay last
year in order to give it time to present its fraud claims
in light of thousands of pages of documents that the
Statis had only recently produced. See Kazakhstan’s
Rule 28(j) Letter, Stati v. Republic of Kazakhstan, No.
18-7047 (D.C. Cir. filed Nov. 15, 2018). Proceedings
there are ongoing, and a substantive hearing on
Kazakhstan’s fraud defense was held on August 27,
2019. Likewise, substantive hearings are scheduled
in Luxembourg on the fraud defense for October 10,
2019, and in Belgium the court has scheduled three
days of hearings on November 13, 14, and 15. See
Decl. Supporting Mot. to Compel, ¶ 11, In re
Application of Republic of Kazakhstan for an Order
Directing Discovery from Black River Emerging
Markets Funds Ltd., No. 18-cv-413 (D. Minn. Aug. 6,
2019), ECF No. 21 (describing status of proceedings in
Amsterdam and in other courts); see also Paige Long,
Kazakhstan Leans on Fraud Claims In Disputing
$500M
Award,
Law360
(Aug.
27,
2019),

27
https://www.law360.com/articles/1192821/kazakhsta
n-leans-on-fraud-claims-in-disputing-500m-award
(discussing status of proceedings). Like the English
High Court, the Amsterdam court recognized
Kazakhstan’s right to demonstrate that the Statis’
Award was procured by fraud, and it consequently
gave Kazakhstan the opportunity to do so.
These foreign courts have permitted examination
into the very same evidence of fraud that was rejected
as untimely in the courts below. In the face of these
rulings and others like them, permitting the district
court’s judgment to stand without allowing
Kazakhstan even to present its case threatens to
undermine the federal judiciary’s integrity with no
corresponding benefit. See, e.g., Enron Nigeria, 844
F.3d at 287-89.
Exacerbating the injury to the reputation of the
United States judiciary, the D.C. Circuit affirmed the
district court’s forfeiture ruling in the face of blackletter precedent establishing that Kazakhstan’s
defense could not be forfeited where, as here, it was
clearly raised prior to enforcement. That is the core
principle established in Enron Nigeria, which
involved a materially indistinguishable public policy
defense based on fraud. See id. By ignoring Enron
Nigeria, the court of appeals risks criticism not only
for unwittingly helping the Statis to “carry out [their]
illegal object,” id. at 287 (quoting Stone v. Freeman,
298 N.Y. 268, 271 (1948)), but also for doing so in the
face of binding precedent that required it to examine
the wrongfulness of the Statis’ conduct.
This Court has routinely granted certiorari in cases,
such as this one, that “bear importantly” on the

28
foreign relations of the United States.11 The Court
should do so here as well, where the threat to the
judiciary’s integrity and reputation is heightened
because of this case’s international profile.
Kazakhstan is an important ally and trading partner
of the United States, and the award at issue is
substantial. But the courts below enforced that halfbillion-dollar award without even considering
Kazakhstan’s defense that the award was procured by
fraud. In such circumstances, the reputational and
integrity considerations of the U.S. courts are at their
peak. Kazakhstan should be provided the kind of fair
hearing that the United States government would
expect in foreign courts.
B. This Court’s Review Is Necessary To
Clarify The Rules For Foreign Sovereigns
Litigating In The United States Under
The New York Convention.
Certiorari is also warranted because the district
court’s application of a draconian waiver rule
highlights the intolerably unpredictable nature of
litigating in United States courts under the New York
Convention. The courts of appeals have interpreted
the FAA to render most of the Federal Rules of Civil
Procedure inapplicable to confirmation proceedings.
11

See, e.g., Banco Nacional de Cuba v. Sabbatino, 376 U.S.
398, 407 (1964) (“We granted certiorari because the issues
involved bear importantly on the conduct of the country’s foreign
relations * * * .”); see also, e.g., Republic of Iraq v. Beaty, 556 U.S.
848, 851, 855 (2009) (certiorari granted to decide scope of foreign
sovereign immunity); Sumitomo Shoji Am., Inc. v. Avaghano,
457 U.S. 176, 177-78 (1982) (certiorari granted to consider
whether treaty provides defense to discrimination suit);
Weinberger v. Rossi, 456 U.S. 25, 26 (1982) (certiorari granted to
consider whether statute’s reference to “treaty” included
executive agreement).

29
See, e.g., TermoRio S.A. E.S.P. v. Electranta S.P., 487
F.3d 928, 940 (D.C. Cir. 2007). But the rules that
govern in their place—the procedures designed “for
the making and hearing of motions,” 9 U.S.C. § 6,
rather than pleading rules to which parties are
accustomed—provide scant guidance for the
commencement and prosecution of enforcement
actions, such as this one, that can reach into the
hundreds of millions of dollars or more. Indeed, the
absence of a coherent procedural regime has been a
source of confusion for litigants, foreign and domestic,
for more than forty years.12
That confusion manifested itself once again in this
case. No rule of procedure specifically governs when
or how a newly-discovered defense to confirmation of
a foreign arbitral award may be raised, but the district
court effectively invented its own rule—one that
cannot be squared with the rule laid out in HazelAtlas, see supra at 23—and applied it to Kazakhstan
after the fact. Even though Kazakhstan’s initial
motion followed standard pleading principles by
merely seeking leave to present its newly-discovered
fraud defense, cf. Fed. R. Civ. P. 15(d), the district
court,
without
permitting
Kazakhstan
the
opportunity to submit its supporting evidence and
reasoning, denied that motion on the ground that
raising the defense would be “futile” because “it is
clear that the arbitrators did not rely upon the
allegedly fraudulent evidence in reaching their
12 See, e.g., TermoRio, 487 F.3d at 939-41 (party erred by

making arguments based on rules governing notice pleading);
Productos Mercantiles E Industriales, S.A. v. Faberge USA, Inc.,
23 F.3d 41, 46 (2d Cir. 1994) (same); O.R. Sec., Inc. v. Prof’l
Planning Assocs., Inc., 857 F.2d 742, 745-46 (11th Cir. 1988)
(same).

30
decision.” JA378. When Kazakhstan, only thirteen
days after briefing on that motion concluded, made
absolutely clear to the court that the arbitrators did,
in fact, rely on the allegedly fraudulent evidence, the
court still refused to even consider the evidence. It
held instead that the evidence had been presented too
late even though Kazakhstan had requested
permission to submit precisely such evidence, neither
side was prejudiced by the supposed delay, and the
court would not rule on the merits of the Statis’
Petition for nearly two more years.
The dearth of procedural clarity in this area
independently justifies this Court’s review. This
Court has never considered what procedures apply to
petitions to confirm arbitral awards under the New
York Convention and the FAA. Article V of the
Convention—which, as a treaty, is the Supreme Law
of the Land, U.S. Const. art. VI, cl. 2—expressly
allows Kazakhstan to present its public policy defense
to confirmation. And the FAA provides that if such a
public policy defense is established then the award
cannot be confirmed.
See App. 58a.
Indeed,
confirmation in such a case must be denied, since any
other result would conflict with this Court’s wellsettled precedents by making domestic courts an
instrument of such fraud. See, e.g., Hazel-Atlas, 322
U.S. at 246; see also Bonar, 835 F.2d at 1385-86. Yet
even though Kazakhstan presented its defense long
before the district court ruled on confirmation, that
court (affirmed by the court of appeals) invented its
own rule to hold that the defense was presented
thirteen days too late. This Court should therefore
grant certiorari to provide clear guidance to district
courts on the procedures that apply to foreign arbitral
confirmation proceedings and to confirm that those

31
procedures do not permit a court to decline to
adjudicate a fraud-based public-policy defense
presented to the district court long before any ruling
on confirmation.
C. This Case Presents An Excellent Vehicle
For Resolving An Important Question Of
International Arbitration Law.
Finally, this case presents an excellent vehicle for
resolving the question of forfeiture because it is
squarely presented and dispositive. The district court
rejected Kazakhstan’s fraud defense and hundreds of
pages of supporting evidence because Kazakhstan had
not presented that material in its motion for leave to
present the defense. See App. 21a-23a. It did not
matter to the district court that Kazakhstan had
presented the defense nearly two years before the
district court finally ruled on the Statis’ confirmation
motion. Id. And because the D.C. Circuit affirmed
that holding in a single, unilluminating sentence,
App. 5a, Kazakhstan has never been allowed to
demonstrate that confirming the Award would violate
United States public policy.
That defense is one of only seven that are enshrined
in the New York Convention. See App. 56a-57a.
Those defenses are to be adjudicated by “the competent authority where the recognition and enforcement” of the award “is sought.” Id. When Congress
codified the New York Convention, it similarly placed
the impetus on the confirming court to evaluate the
Convention’s defenses. See App. 58a (“The court shall
confirm the award unless it finds one of the grounds
for refusal or deferral of recognition or enforcement of
the award specified in the said Convention.”). To deny
Kazakhstan any opportunity to present its fraud
defense to the authority tasked with adjudicating it,

32
as the courts below have done here, undercuts
Congress’s plain intent that courts not simply rubberstamp foreign arbitrations that conflict with this
country’s longstanding public policy, including that
which prohibits using the court of the United States
as an instrument of fraud.
CONCLUSION
For the foregoing reasons, this Court should grant
certiorari and reverse the judgment after plenary
review or, in the alternative, summarily reverse.
Respectfully submitted,
JONATHAN S. FRANKLIN
Counsel of Record
MATTHEW H. KIRTLAND
PETER B. SIEGAL
NORTON ROSE FULBRIGHT US LLP
799 9th Street NW, Suite 1000
Washington, DC 20001
(202) 662-0466
jonathan.franklin@
nortonrosefulbright.com
September 2019

Counsel for Petitioner

APPENDIX

TABLE OF CONTENTS
Page
Appendix A:

Judgment of the U.S. Court of
Appeals for the District Of
Columbia Circuit (Apr. 19, 2019) ... 1a

Appendix B:

Memorandum Opinion of the U.S.
District Court for the District of
Columbia (Mar. 23, 2018) ............... 7a

Appendix C:

Order of the U.S. District Court for
the District of Columbia (Mar. 23,
2018) .............................................. 46a

Appendix D:

Order of the U.S. District Court for
the District of Columbia (May 11,
2016) .............................................. 47a

Appendix E:

Per Curiam Order of the U.S.
Court of Appeals for the District Of
Columbia Circuit, en banc (June 4,
2019) .............................................. 53a

Appendix F:

Per Curiam Order of the U.S.
Court of Appeals for the District Of
Columbia Circuit (June 4, 2019) .. 55a

Appendix G:

New York Convention on the
Recognition and Enforcement of
Foreign Arbitral Awards, June 10,
1958, 330 U.N.T.S. 38 (Excerpt) .. 56a

Appendix H:

9 U.S.C. § 207 ............................... 58a

1a
APPENDIX A

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-7047

September Term, 2018

FILED ON: APRIL 19, 2019
____________

ANATOLIE STATI, ET AL.,
Appellees
v.
REPUBLIC OF KAZAKHSTAN,
Appellant
__________________
Appeal from the United States District Court for
the District of Columbia
(No. 1:14-cv-01638)
__________________
Before: WILKINS and KATSAS, Circuit Judges, and
RANDOLPH, Senior Circuit Judge.
September Term, 2018
Filed On: April 19, 2019
JUDGMENT
This appeal was considered on the record from the
United States District Court for the District of
Columbia, and on the briefs and oral arguments of
the parties. After full review of the case, the Court is
satisfied that appropriate disposition of the appeal

2a
does not warrant an opinion. See FED. R. APP. P. 36;
D.C. CIR. R. 36(d). It is
ORDERED and ADJUDGED that the decisions of
the United States District Court for the District of
Columbia be AFFIRMED.
From 1999 to 2000, Petitioners-Appellees Anatolie
Stati, Gabriel Stati, Ascom Group, S.A., and Terra
Raf Trans Traiding Ltd. (“the Statis”) acquired
controlling shares in two Kazakh oil companies:
Ascom purchased a 62 percent interest in
Kazpolmunay LLP (“KPM”), and the Statis
purchased 75 percent interest in Toklynneftagaz
LLP (“TNG”). These companies owned subsoil use
rights to the Borankol oil and Tolkyn gas fields and
the Tabyl exploration block in Kazakhstan. By 2001,
the Statis invested an estimated one billion US
dollars exploring and developing these projects.
These developments stalled in 2008 when the
President of Kazakhstan received a letter from the
President of Moldova, the Statis’ home country. The
letter stated that Anatolie Stati invested in UNsanctioned areas using proceeds from Kazakhstan’s
mineral resources and that he was concealing profits
in offshore accounts. As a result, the Kazakh
government began investigating Anatolie Stati and
his companies.
For several reasons, Petitioners characterize this
investigation as a “campaign of intimidation and
harassment” to pressure the Statis to sell their
investments to Kazakhstan’s state-owned oil
company at a substantially depreciated price. JA 2122.
They
allege
that
Respondent-Appellant
Kazakhstan publicly accused the Statis of fraud and
forgery, which clouded their title to TNG. Moreover,

3a
according to the Statis, Kazakhstan levied more than
$70 million in back taxes against KPM and TNG,
and it arrested and prosecuted KPM’s general
manager for “illegal entrepreneurial activity.” JA 2122. Kazakhstan defends the validity of its
investigation and claims that the back taxes were
properly assessed and KPM’s general manager was
justly prosecuted pursuant to a legitimate criminal
investigation. On July 21, 2010, Kazakhstan
terminated KPM and TNG’s subsoil use contracts.
On July 26, 2010, the Statis filed a Request for
Arbitration (“Request”) with the Stockholm Chamber
of Commerce (“SCC”) in Sweden. The Request claims
that Kazakhstan’s actions violated its obligations as
a signatory to the Energy Charter Treaty (“ECT”).
The ECT is an international agreement that permits
signatories to arbitrate disputes in foreign tribunals,
such as the SCC. Under the ECT, the SCC rules
governed the arbitral proceedings.
On December 19, 2013, the tribunal issued an
award in favor of the Statis. The tribunal found that
Kazakhstan’s actions “constituted a string of
measures of coordinated harassment,” which
constituted “a breach of [its] obligation to treat
investors fairly and equitably, as required by Art.
10(1) ECT.” JA 67. The tribunal awarded the Statis
$497,685,101 for damages, and Kazakhstan was also
required to pay the Statis $8,975,496.40 in legal
costs.
On September 30, 2014, the Statis filed a Petition
to Confirm Arbitral Award in the District Court
under the Convention on the Recognition and
Enforcement of Foreign Arbitral Awards (“New York
Convention”), which has been incorporated into the
Federal Arbitration Act. See 9 U.S.C. §§ 201-208. On

4a
April 5, 2016, after the parties had completed their
merits briefings in this case, Kazakhstan filed a
motion for leave to file “additional grounds” in
support of its opposition to the petition to confirm the
arbitral award. The District Court denied
Kazakhstan’s motion after considering whether
justice required permitting it to add new grounds to
its opposition to the petition to confirm the award.
Kazakhstan then filed a motion for reconsideration
of the District Court’s denial of its motion to
supplement. On March 23, 2018, the District Court
issued a memorandum opinion denying the motion
for reconsideration and confirming the arbitration
award.
We affirm the District Court’s grant of the Statis’
petition to confirm the arbitral award. There is an
“emphatic federal policy in favor of arbitral dispute
resolution,” thus district courts have “little discretion
in refusing or deferring enforcement of foreign
arbitral awards: the [New York] Convention is ‘clear’
that a court ‘may refuse to enforce the award only on
the grounds explicitly set forth in Article V of the
Convention.’” Belize Soc. Dev. Ltd. v. Gov’t of Belize,
668 F.3d 724, 727 (D.C. Cir. 2012) (quoting
Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth,
Inc., 473 U.S. 614, 631 (1985), and TermoRio S.A.
E.S.P. v. Electranta S.P., 487 F.3d 928, 935 (D.C. Cir.
2007)). Kazakhstan has failed to show that any
exceptions to enforceability under the New York
Convention are appropriate here.
In its primary argument on appeal, Kazakhstan
contends that the arbitral award is not enforceable
under the New York Convention because the SCC
appointed Kazakhstan’s arbitrator on its behalf and
without notice, in violation of the governing

5a
arbitration rules. We defer to the SCC’s
interpretation of its own rules and hold that the SCC
Board’s appointment of the arbitrator was proper
because Kazakhstan had notice and the opportunity
to name an arbitrator but failed to do so.
Kazakhstan also claims that the District Court
should have refused to enforce the arbitral award
because the Statis failed to comply with the “coolingoff” provision that was an express condition of
Kazakhstan’s agreement to arbitrate. But their
argument elides the fact that Kazakhstan received a
stay – the precise remedy they sought. In January
2011, Kazakhstan sent a letter to the SCC objecting
to the Statis’ failure to comply with the cooling-off
provision before commencing arbitration, and it
proposed a stay of arbitration to cure the defect.
Kazakhstan does not contest that, in response, the
tribunal granted a three-month stay of the arbitral
proceedings.
Kazakhstan’s final argument is that the District
Court erred by denying both its motion for leave to
submit additional grounds in support of its
opposition to the petition and its motion for
reconsideration of that denial, because it had a right
to present proof that the award was procured by
fraud. We review the District Court’s denial of
Kazakhstan’s motion for leave to submit additional
grounds for defense for abuse of discretion,
“requiring only that the court base its ruling on a
valid ground.” James Madison Ltd. by Hecht v.
Ludwig, 82 F.3d 1085, 1099 (D.C. Cir. 1996). We find
that it was not an abuse of discretion for the District
Court to deny Kazakhstan’s motion because the
District Court based its ruling on multiple valid
grounds. We further agree with the District Court

6a
that Kazakhstan improperly presented new facts in
its motion for reconsideration that it had not
introduced in its original motion to supplement.
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to
withhold issuance of the mandate until seven days
after the disposition of any timely petition for
rehearing or petition for rehearing en banc. See FED.
R. APP. P. 41(b); D.C. CIR. R. 41(a)(1).
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Ken Meadows
Deputy Clerk

7a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ANATOLIE STATI;
GABRIEL STATI;
ASCOM GROUP, S.A.;
TERRA RAF TRANS
TRAIDING LTD.,
Petitioners

)
)
)
)
)
)

v.
REPUBLIC OF
KAZAKHSTAN,
Respondent.

)

Civil Action No. 141638 (ABJ)

)
)

MEMORANDUM OPINION
Petitioners, Anatolie Stati, Gabriel Stati, Ascom
Group, S.A., and Terra Raf Trans Traiding Ltd.
(“Stati parties”)1 have brought this action to enforce
an international arbitration award against the
respondent,
the
Republic
of
Kazakhstan
(“Kazakhstan”), in the United States. The matter is
fully briefed and ripe for decision, but before the
Court can turn to the merits of the dispute, it must
address respondent’s motion for reconsideration of
the Court’s May 11, 2016, Order denying
1 Anatolie Stati is the father of Gabriel Stati. Both are

citizens of Moldova and Romania. ASCOM Group S.A. is a joint
stock company incorporated and located in Moldova and owned
entirely by Anatolie Stati. Terra Raf Trans Traiding Ltd. is a
limited liability company incorporated and located in Gibraltar
and owned in equal shares by Anatolie Stati and Gabriel Stati.
Pet. to Confirm Arbitral Award (“Pet.”) [Dkt. # 1] ¶¶ 2–5.

8a
respondent’s motion for leave to submit additional
defense grounds in opposition to the motion to
confirm the arbitral award. For the reasons that
follow, the Court will deny respondent’s motion and
it will confirm the award.2
BACKGROUND
A. Factual Background
Petitioners have been involved in the oil and gas
business in Kazakhstan for approximately 17 years.
Between 1999 and 2000, petitioners purchased
controlling shares in two Kazakh companies,
Kazpolmunay LLP (“KPM”) and Tolkynneftagaz LLP
(“TNG”). Pet. ¶¶ 28–30. The companies owned the
subsoil use rights to the Borankol oil field, the
Tolkyn gas field, and the Tabyl exploration block in
Kazakhstan. Id. ¶¶ 29–30. Petitioners eventually
came to own 100% of KPM and TNG, and in 2000,
those companies obtained approval from Kazakhstan
to explore and develop various oil and gas fields
located in the country. Id. ¶ 31; Arb. Award [Dkt. #
2-1, 2-2, 2-3, 2-4] (“Award”) ¶ 229. A year later, in
2001, petitioners, through KPM and TNG, invested
more than one billion dollars in the development of
the Borankol and Tolkyn fields, and the Tabyl Block.
Pet. ¶ 32.
In 2008, Kazakhstan began a government
investigation of Anatolie Stati and his companies,
including his compliance with export tax laws.
Award ¶¶ 296–99. Petitioners and respondent
2 In its prior Memorandum Opinion, the Court found that it

has subject matter jurisdiction over this action under the
Federal Arbitration Act and the Foreign Sovereign Immunities
Act. See Stati v. Republic of Kazakhstan, 199 F. Supp. 3d 179,
181 (D.D.C. 2016).

9a
disagree on what followed. According to petitioners,
the government of Kazakhstan began to intimidate
and harass petitioners into selling their investments
to the state-owned company KazMunaiGas at a
substantial discount. Pet. ¶ 33. Specifically,
petitioners claim that Kazakhstan “baselessly”
accused petitioners of fraud and forgery, levied more
than $70 million dollars in back taxes, arrested
KPM’s general manager for “illegal entrepreneurial
activity,” and ultimately seized all of KPM and
TNG’s assets. Id. And on July 21, 2010, Kazakhstan
terminated petitioners’ subsoil use contracts. Award
¶ 611.
Kazakhstan’s version of events is that the Kazakh
Tax and Customs Committee properly assessed $62
million dollars in taxes to petitioners, and that a
lawful criminal investigation by the Kazakh
authorities led to the arrest and imprisonment of
KPM’s General Director. Award ¶¶ 394, 430, 440,
492. Respondent maintains that it was the
investigation that led to the termination of KPM and
TNG’s subsoil use contracts on July 21, 2010, and it
disputes the claim that Kazakhstan expropriated
petitioners’ assets. Id. ¶¶ 591–611. Instead,
respondent takes the position that the Kazakh state
oil company and its subsidiary placed petitioners’ oil
and gas fields into trust management on a temporary
basis only. Id. ¶ 611.
B. Procedural Background
On July 26, 2010, petitioners filed a Request for
Arbitration with the Stockholm Chamber of
Commerce (“SCC”) in Sweden. Req. for Arb., Ex. C.
to Decl. of Charlene C. Sun [Dkt. # 2-6] (“Req. for
Arb.”). The request states:

10a
Over the past two years, Kazakhstan
has engaged in a campaign of
harassment and illegal acts against
[petitioners] that culminated on July
21, 2010 with the State’s notice of
unilateral termination of the companies’
Subsoil Use Contracts, the illegal
expropriation of [petitioners’] Kazakh
investments, and the subsequent
commandeering of [petitioners’] offices
by
personnel
of
State-owned
KazMunaiGas and the Kazakh Ministry
of Oil and Gas.
Id. ¶ 4. Petitioners further alleged that Kazakhstan’s
harassment “clearly had expropriation as its
ultimate goal, and it had the effect in the process of
destroying both the market value and alienability of
[petitioners’] investments.” Id. ¶¶ 4, 8. The request
invoked the Energy Charter Treaty (“ECT”), an
international agreement signed by the respondent,
which allows investors to submit disputes to the SCC
for arbitration. Energy Charter Treaty, art. 26(4)(c),
Dec. 17, 1994, 2080 U.N.T.S. 95, 121–22.
Accordingly, the arbitral proceedings were governed
by the SCC’s Arbitration Rules. Pet. ¶ 22.
On December 19, 2013, the SCC tribunal issued an
award in favor of petitioners and against respondent.
Pet. ¶ 27. The tribunal determined that Kazakhstan
breached its obligation to provide fair and equitable
treatment under Article 10(1) of the ECT. Award ¶¶
1085–95. It awarded petitioners $497,685,101 for the
alleged expropriation of petitioners’ assets in
Kazakhstan. Id. ¶ 1859. This total included $277.8
million for the Borankol and Tolkyn oil and gas
fields, $31.3 million for the subsoil use contracts,

11a
$199 million for an unfinished liquefied petroleum
gas plant (“LPG plant”), and $8,975,496.40 in legal
costs. Id. ¶¶ 1856–61, 1885.3
On September 30, 2014, petitioners asked this
Court to confirm the arbitral award in the United
States pursuant to the Federal Arbitration Act
(“FAA”), 9 U.S.C. § 201 et seq., which codifies the
United Nations Convention on the Recognition and
Enforcement of Foreign Arbitral Awards, June 10,
1958, 330 U.N.T.S. 38, commonly known as the “New
York Convention.” Pet. ¶ 1. The Stati parties sought
to enforce the foreign arbitral award here on the
grounds that Kazakhstan maintains assets in the
United States. Id. ¶ 46. Respondent opposed the
petition to confirm based on five grounds under the
New York Convention, focusing primarily on the
SCC’s appointment of respondent’s arbitrator and its
alleged failure to enforce the requirement that there
be a three-month settlement period prior to the
initiation of an arbitration. Resp’t’s Opp. to Pet. [Dkt.
# 20] (“Resp’t’s Opp.”). Petitioners filed a reply,
Pet’rs’ Reply Mem. in Supp. of Pet. [Dkt. # 24]
(“Pet’rs’ Reply”), and the Court granted respondent
leave to file a sur-reply. Resp’t’s Sur-Reply in Supp.
of Resp’t’s Opp. [Dkt. # 28] (“Resp’t’s Sur-Reply”). By
May 26, 2015, the parties had completed briefing on
the merits.
1. Respondent’s motion for leave to include
additional defense grounds.
3 In the Petition to Confirm the Award, petitioners assert

that respondent must pay them “$506,660,597.40 plus (a)
compound prejudgment interest as set forth in the Award from
April 9, 2009 to the date that judgment is entered herein, and
(b) post-judgment interest from the date that judgment is
entered to the date of satisfaction.” Pet. ¶ 48.

12a
According to respondent, in June of 2015, it became
aware of “new evidence” that petitioners had
“obtained the [arbitral] [a]ward through fraud.”
Resp’t’s Mot. for Leave to Submit Additional
Grounds in Supp. of Opp. to Pet. [Dkt. # 32] (“Initial
Mot.”) at 4, 6. Respondent waited till April 5, 2016,
though – nearly a year after learning about the
alleged fraud and completing the merits briefing in
this case – to file a motion seeking leave to submit
additional defenses to enforcement of the arbitral
award. Id. at 1, 4.
In that motion, respondent argued that petitioners
procured the award through fraud by submitting
“false testimony and evidence to the SCC Arbitration
tribunal” that “materially misrepresented the LPG
Plant construction costs for which they claimed
reimbursement in the [arbitration].” Id. at 4.
Respondent contended that the newly discovered
fraud afforded it two additional defenses under
Article V(2)(b) and Article V(1)(b) of the New York
Convention. Id. at 4–6. Under Article V(2)(b) the
Court could refuse recognition of the award because
enforcement of a fraudulently obtained arbitral
award would be contrary to United States public
policy. Id. at 4–5. And respondent also asserted that
“the intentional giving of false evidence” during the
arbitration “denied [respondent] the opportunity to
present its case,” thus rendering the arbitral award
unenforceable under Article V(1)(b) of the New York
Convention. Id. at 5–6.
In the absence of an applicable rule setting forth
the standard to be applied to respondent’s motion,
the Court considered whether justice required
permitting respondent to “add new grounds to its
opposition to the petition to confirm the award, more

13a
than a year after the original opposition was filed.”
Order (May 11, 2016) [Dkt. # 36] at 2–3 (“Order”).
The Court reviewed the SCC arbitration award and
denied the motion, reasoning that “it [would] not be
in the interest of justice to conduct a mini-trial on
the issue of fraud here when the arbitrators
expressly disavowed any reliance on the allegedly
fraudulent material.” Id. at 4. In other words, the
evidence respondent sought to discredit was not
material to the decision.
The Court derived this conclusion based on its own
detailed review of the award, which stated in
relevant part:
Regarding the value of damages caused
by Respondent’s action, the Tribunal
has taken note of the various extensive
arguments submitted by the Parties
relying on their respective experts’
reports.
However,
the
Tribunal
considers that it does not have to
evaluate these reports and the very
different results they reach. In the view
of the Tribunal, the relatively best
source for the valuation . . . are the
contemporaneous bids that were made
for the LPG Plant by third parties after
Claimants’ efforts to sell the LPG Plant
....
Award ¶ 1746. The panel concluded:
[T]he Tribunal considers it to be of
particular relevance that an offer was
made for the LPG Plant by state-owned
KMG at that time for USD 199 million.
The Tribunal considers that to be the

14a
relatively best source of information for
the valuation of the LPG Plant among
the various sources of information
submitted by the Parties regarding the
valuation for the LPG Plant during the
relevant period . . . . Therefore, this is
the amount of damages the Tribunal
accepts in this context.
Id. ¶¶ 1747–48.
Kazakhstan then filed the instant motion for
reconsideration, Resp’t’s Mot. for Recons. of May 11,
2016, Order [Dkt. # 37] (“Mot. for Recons.”), and
petitioners opposed the motion. Pet’rs’ Mem. of P. &
A. in Opp. to Resp’t’s Mot. for Recons. [Dkt. # 38]
(“Pet’rs’ Opp.”). Petitioners pointed out that
Kazakhstan “has the opportunity to litigate the very
same fraud allegations in the courts of Sweden,
which is the seat of the arbitration and primary
jurisdiction in this case.” Id. at 5. Respondent
confirmed that the parties were litigating the fraud
issue in Sweden, where it was seeking to vacate the
award, but it argued that the Swedish proceeding
should not affect the Court’s review of the petition to
confirm, or the motion for reconsideration. See Reply
in Supp. of Mot. for Recons. [Dkt. # 39] at 3–5.
2. The Swedish proceedings to vacate the
arbitral award.
In light of the pendency of the Swedish proceedings
to vacate the award, this Court exercised its
discretion to stay this case pending the resolution of
the proceedings before the Svea Court of Appeal in
Sweden, noting that they “could have a dramatic
impact on the petition to confirm the arbitration
award.” Stati, 199 F. Supp. 3d at 193. It observed

15a
that if “respondent [was] successful in the set-aside
proceeding [in Sweden], confirmation of the award
[would] be unlikely” in the United States. Id., citing
New York Convention, art. V(1)(e) (providing that
enforcement of an award may be refused when the
“award . . . has been set aside . . . by a competent
authority of the country in which, or under the law of
which, that award was made”). In that same ruling,
the Court found that it had subject matter
jurisdiction over the dispute under the FAA and the
Foreign Sovereign Immunities Act. Id. at 184–190.
On December 9, 2016, the Svea Court of Appeal
issued its decision upholding the Award and
rejecting Kazakhstan’s arguments, including the
argument that the Award should be vacated in light
of the alleged fraud. Svea Court of Appeal J., Exs. 1–
3 to Joint Report (Dec. 30, 2016) [Dkt. # 45-1, 45-2,
45-3] § 5.3.1 (“Svea Court of Appeal Opinion”).
Kazakhstan presented at least two theories of fraud
before the Svea Court of Appeal. First, it argued,
much as it had before this Court, that the Stati
parties had submitted false evidence on the value of
the LPG plant in the form of sworn testimony and
expert reports during the arbitration. Id. § 3.1.2.1.
Second, respondent argued that the award was
tainted by fraud that took place prior to the start of
the arbitration. Id. It alleged that representatives for
the Stati parties presented financial statements that
falsely inflated the amounts invested in the LPG
plant to a third-party company, KMG, and that KMG
was fraudulently induced into bidding $199 million
for the LPG plant. Id. According to respondent, since
it was the KMG bid that was used by the tribunal to
value the LPG plant, the arbitral award was
procured by fraud. Id.

16a
Following a review of the full record, the Svea
Court of Appeal rejected all of Kazakhstan’s
contentions. First, it concluded that “[s]ince the
arbitral tribunal based its assessment [of the LPG
plant] on the indicative bid” and not the allegedly
false “witness testimony, witness affidavits, and
expert reports” submitted by the Stati parties during
the arbitration, this evidence did not have
“immediate importance for the outcome.” Svea Court
of Appeal J., Ex. 3 to Joint Report (Dec. 30, 2016)
[Dkt. # 45-3] at 45.4 The Svea Court of Appeal recited
the legal principle that “there can be no question of
declaring an arbitral award invalid solely on the
ground that false evidence or untrue testimony has
occurred, when it is not clear that such have been
directly decisive for the outcome.” Id. Since “even if
[the evidence] were proven to be false,” it would not
have changed the outcome of the arbitration, the
court deemed it insufficient to invalidate the award.
Id.
Second, the Svea Court of Appeal concluded that
because the KMG indicative bid was made “prior to
the initiation of the arbitration,” the bid did not
4 In its August 5, 2016 Memorandum Opinion and Order, the

Court directed the parties to file an English translation of the
Svea Court of Appeal decision when it issued. Stati, 199 F.
Supp. 3d at 193. Instead of submitting a single version, each of
the parties submitted their own separate versions and averred
that an agreed-upon translation of the entire decision would be
“involved
and
likely
controversial”
and
ultimately
“unnecessary.” Joint Status Report [Dkt. # 46] at 16–17. The
Court has reviewed the sections it has referenced in its opinion
and finds that they are not inconsistent. Compare petitioners’
translation, Ex. 2 to Joint Status Report (Dec. 30, 2016) [Dkt. #
45-2] at 40–42, and respondent’s translation, Ex. 3 Joint Status
Report (Dec. 30, 2016) [Dkt. # 45-3] at 44–46.

17a
constitute “per se” false evidence, even if “possibly
incorrect information regarding the amount invested
in the LPG plant was among the factors that KMG
took into account when calculating the size of its
offer.” Id. at 46. It concluded that the allegedly false
financial statements “did not directly constitute any
basis for the arbitral tribunal’s assessment of the
value of the LPG plant.” Id. In other words, any
alleged dishonesty in business transactions that
preceded the arbitration proceedings did not
constitute a fraud on the tribunal and was too
remote to warrant annulment of the award.
Kazakhstan then challenged the decision in the
Swedish Supreme Court, arguing that the Svea
Court of Appeal committed “grave procedural error”
when it issued its decision. Ex. B. to Decl. of
Alexander Foerster [Dkt. # 46-2] ¶ 3. This Court
continued its stay pending the resolution of that
proceeding, Min. Order (Apr. 3, 2017); Min. Order
(Aug. 15, 2017), and petitioners moved to lift the stay
on September 29, 2017. Pet’rs’ Mot. to Lift Stay [Dkt.
# 60]. Before this Court ruled on that motion, the
Swedish Supreme Court ruled in favor of the Stati
parties on October 24, 2017. Pet’rs’ Suppl. Status
Report Concerning Status of Proceedings in Sweden
[Dkt. # 64]. This marked the end of Kazakhstan’s
efforts to set aside the arbitral award in the
jurisdiction with the sole authority to vacate the
arbitral award.
Since the Swedish award was now final and
binding, the Court granted petitioners’ motion to lift
the stay on November 6, 2017, and it invited the
parties to file supplemental briefs discussing what
impact, if any, the decisions by the Swedish
authorities should have on the resolution of

18a
Kazakhstan’s pending motion for reconsideration of
the Court’s May 11, 2016, Order denying
respondent’s request to introduce additional defense
grounds based upon its fraud allegations. Min. Order
(Nov. 6, 2017).
Kazakhstan argued that the decisions by the Svea
Court of Appeal and the Swedish Supreme Court
based on Swedish law should have no impact on the
issue presented in its motion for reconsideration
because “neither of these decisions made factual
findings regarding the merits of Kazakhstan’s fraud
allegations, nor did they apply the New York
Convention,” as this Court is required to do.
Kazakhstan’s Resp. to Nov. 6, 2017, Min. Order [Dkt.
# 65] (“Resp’t’s Resp. to Nov. 6 Min. Order”).
Meanwhile, petitioners emphasized that respondent
presented its “fraud case in full” to the Svea Court of
Appeal, the seat of the arbitral award, which
concluded “[t]hat the Award was not the product of
fraud,” and its ruling was left undisturbed by the
Swedish Supreme Court. Pet’rs’ Suppl. Submission
in Opp. to Mot. for Recons. [Dkt. # 66] at 1–2.
Petitioners also argued that the Court should deny
respondent’s motion based on the principles of
preclusion and comity, id. at 3–10, and respondent
argued in a sur-reply that the principles of
preclusion and comity are inapplicable. Kazakhstan’s
Resp. to Pet’rs’ Suppl. Submission in Opp. to Mot. for
Recons. [Dkt. # 68] at 25.
I. THE MOTION FOR RECONSIDERATION
STANDARD OF REVIEW
The Court evaluates respondent’s motion for
reconsideration under Rule 54(b) of the Federal
Rules
of
Civil
Procedure,
which
governs

19a
reconsideration of non-final decisions. The rule
states that “any order . . . that adjudicates fewer
than all the claims or the rights and liabilities of
fewer than all the parties . . . may be revised at any
time before the entry of a judgment adjudicating all
the claims and all the parties’ rights and liabilities.”
Fed. R. Civ. P. 54(b). The Court may grant relief
under Rule 54(b) “as justice requires.” Capitol
Sprinkler Inspection, Inc. v. Guest Servs., Inc., 630
F.3d 217, 227 (D.C. Cir. 2011) (internal citations
omitted); see also Parker v. John Moriarty & Assocs.,
221 F. Supp. 3d 1, 2 (D.D.C. 2016). While this
standard “affords considerable discretion to the
district courts,” Bldg. Indus. Ass’n of Superior Cal. v.
Babbitt, 161 F.3d 740, 743 (D.C. Cir. 1998), it is
limited by the principle that once the parties have
“battled for the court’s decision, they should neither
be required, nor without good reason permitted, to
battle for it again.” Wannall v. Honeywell Int’l, Inc.,
292 F.R.D. 26, 30–31 (D.D.C. 2013), quoting Elec.
Privacy Info. Ctr. v. U.S. Dep’t of Homeland Sec., 811
F. Supp. 2d 216, 224 (D.D.C. 2011). “In this Circuit,
it
is
well-established
that
‘motions
for
reconsideration,’ whatever their procedural basis,
cannot be used as ‘an opportunity to reargue facts
and theories upon which a court has already ruled,
nor as a vehicle for presenting theories or arguments
that could have been advanced earlier.’” Loumiet v.
United States, 65 F. Supp. 3d 19, 24 (D.D.C. 2014),
quoting Estate of Gaither ex rel. Gaither v. Dist. of
Columbia, 771 F. Supp. 2d 5, 10 (D.D.C. 2011).
The “as justice requires” standard under Rule 54(b)
involves concrete considerations of whether the court
“has patently misunderstood a party, has made a
decision outside the adversarial issues presented to

20a
the [c]ourt by the parties, has made an error not of
reasoning, but of apprehension, or where a
controlling or significant change in the law or facts
[has occurred] since the submission of the issue to
the [c]ourt.” Cobell v. Norton, 224 F.R.D. 266, 272
(D.D.C. 2004) (internal citations omitted). Other
courts in this district have read the standard to
require that the court grant a motion for
reconsideration
“only
when
the
movant
demonstrates: (1) an intervening change in the law;
(2) the discovery of new evidence not previously
available; or (3) a clear error in the first order.”
Stewart v. Panetta, 826 F. Supp. 2d 176, 177 (D.D.C.
2011), quoting Zeigler v. Potter, 555 F. Supp. 2d 126,
129 (D.D.C. 2008).
Here, respondent does not point to a change in the
law. Nor does it argue that it discovered new
evidence after it had already filed its motion. It
simply repeats arguments made unsuccessfully
before and couples them with arguments it chose not
to raise at that time, and it suggests that the Court’s
ruling was erroneous. But none of the reasons
advanced at this time requires a change in the
outcome.
ANALYSIS
Respondent argues first that the Court’s conclusion
that the “arbitrators did not rely upon” the alleged
fraud is “factually incorrect.” Mot. for Recons. at 1.
Second, it maintains that the Court applied the
wrong legal standard when it interpreted
respondent’s public policy defense under Article
V(2)(b) of the New York Convention. Id. at 10–11.
And third, it contends that the May 11, 2016, Order
failed to consider its alternate defense under Article
V(1)(b) of the New York Convention. Id. at 11–12.

21a
A. The Court did not err as a matter of fact.
The Court did not err as a matter of fact in its May
11, 2016, Order for the simple reason that
respondent did not present the facts it now seeks to
introduce in its motion for reconsideration. And
because respondent does not claim that these facts
were not available to it at the time it filed its initial
motion to include additional defenses, they are
improperly raised now. Furthermore, the Court did
not err in evaluating the facts that were before it
when respondent filed its initial motion, and
accordingly reconsideration on this ground is denied.
In its initial motion to include additional defenses,
respondent alleged that petitioners and their
representatives had submitted false sworn testimony
and expert reports “during the SCC Arbitration” that
“fraudulently and materially misrepresented the
LPG Plant construction costs for which they claimed
reimbursement.” Initial Mot. at 3, 4. In other words,
respondent accused petitioners of defrauding the
tribunal directly. The Court found that since the
arbitrators expressly disavowed reliance on either
parties’ valuations in determining the amount of the
damages, the alleged fraud had no effect on the
outcome of the arbitration. See Order at 3–4, citing
Award ¶¶ 1746–48.
Kazakhstan attempts to discredit the Court’s
finding by positing, without support, that the Court
simply “relied on the Stati party’s representations in
their Opposition Brief” when it reached its
conclusion. Resp’t’s Resp. to Nov. 6 Min. Order at 4;
Mot. for Recons. at 3. Since the Court’s ruling was
expressly based upon the language in the arbitral
award, this hypothesis does not warrant serious
consideration, much less a revision of the terms of

22a
the Order. So the Court did not err as a matter of
fact in this regard.5
In its motion for reconsideration, respondent now
claims that the indicative bid the arbitrators did
select as a measure of the value the LPG plant – the
“KMG bid” – was itself the product of fraud. Mot. for
Recons. at 3, 9–10. Kazakhstan alleges that prior to
the start of the arbitration, representatives for the
Stati parties presented KMG with false financial
statements that inflated the value of the plant and
fraudulently induced KMG to offer $199 million for
the plant. Id. at 9. Since the bid was tainted by
fraud, respondent argues that the fee award
predicated on the amount of the bid was procured by
fraud. Id. at 10.6
The problem is that none of these facts were
presented to the Court in respondent’s initial motion
to include additional defenses. Indeed, there was not
a single reference to “KMG” or the facts supposedly
suggesting fraudulent inducement. So the Court did
not err in failing to grant relief on this basis.
Respondent attempts to minimize its omission by
characterizing these facts as mere “details” it
planned to brief once it was granted leave by the
Court. Mot. for Recons. at 1 n. 3. But it is apparent
that these facts go to the very heart of respondent’s
current defense and that they support an entirely
separate theory of fraud that respondent did not seek
5 Indeed, the Svea Court of Appeal arrived at the same

conclusion when it was presented with the same fraud theory.
Svea Court of Appeal Opinion § 5.3.1.
6 The Svea Court of Appeal rejected respondent’s attempt to

invalidate the award on this basis as well. Svea Court of Appeal
Opinion § 5.3.1.

23a
leave to introduce. Since respondent is not claiming
that the evidence of KMG’s fraudulent inducement
was not available to it at the time it filed its initial
motion, but rather that it simply elected not to raise
it, the Court finds that those facts are improperly
raised now. A motion for reconsideration is not “an
opportunity to reargue facts and theories upon which
a court has already ruled, nor as a vehicle for
presenting theories or arguments that could have
been advanced earlier.” Estate of Gaither ex rel.
Gaither, 771 F. Supp. 2d at 10, quoting Secs. & Exch.
Comm’n, 729 F. Supp. 2d at 14 (D.D.C. 2010).
Accordingly, the Court did not commit an error of
fact, and it denies reconsideration based on this
ground.
B. The Court did not err as a matter of law.
Respondent argues in the alternative that the
Court’s conclusion that the alleged fraud was not
“germane to the petition to confirm” because “the
arbitrators did not rely upon the allegedly fraudulent
evidence” is incorrect as a matter of law. Mot. for
Recons. at 10. Respondent objects to what it
characterizes as the Court’s “outcome-determinative”
approach; it argues that when considering a public
policy defense under Article V(2)(b) of the New York
Convention, evidence of fraud is “germane . . .
whether or not the arbitral tribunal relied on the
fraud,” Mot. for Recons. 10–11, and “the submission
of false evidence, in itself, constitutes a basis for nonrecognition” of the arbitral award. Resp’t’s Resp. to
Nov. 6 Min. Order at 6. Respondent mischaracterizes
both the Court’s ruling and the applicable legal
standard.

24a
In determining whether to enforce a foreign
arbitral award in the United States, the Court must
follow the FAA which codifies the New York
Convention. The “Convention authorizes the
recipient of a foreign arbitral award to seek
confirmation and enforcement of the award in federal
court.” In Re Arbitration of Certain Controversies
Between Getma Int’l & Republic of Guinea, 191 F.
Supp. 3d 43, 48–49 (D.D.C. 2016), aff’d sub nom.
Getma Int’l v. Republic of Guinea, 862 F.3d 45 (D.C.
Cir. 2017), citing 9 U.S.C. §§ 202, 207. Under the
FAA, courts “may refuse to enforce the award only on
the grounds explicitly set forth in Article V of the
Convention.” TermoRio S.A. E.S.P. v. Electranta
S.P., 487 F.3d 928, 935 (D.C. Cir. 2007), quoting
Yusuf Ahmed Alghanim & Sons v. Toys “R” Us, Inc.,
126 F.3d 15, 23 (2d Cir. 1997).
Under Article V(2)(b) of the New York Convention,
a court may refuse to enforce a foreign arbitral
award if it “would be contrary to the public policy” of
the country where enforcement is sought. Belize
Bank Ltd. v. Gov’t of Belize, 852 F.3d 1107, 1110–11
(D.C. Cir.), cert. denied, 138 S. Ct. 448 (2017),
quoting New York Convention art. V(2)(b). The D.C.
Circuit has recognized that an arbitral award
obtained through fraud would be contrary to U.S.
public policy under Article V(2)(b) of the New York
Convention. Enron Nigeria Power Holding, Ltd. v.
Fed. Republic of Nigeria, 844 F.3d 281, 287 (D.C. Cir.
2016). However, the public policy defense is
“construed narrowly,” and it requires a respondent to
meet the “heavy burden” of proving that the arbitral
award “tends clearly to undermine the public
interest, the public confidence in the administration
of the law, or security for individual rights of

25a
personal liberty or of private property.” Id., at 289,
quoting TermoRio S.A. E.S.P., 487 F.3d at 938. The
evidence proffered in support of the motion for
reconsideration does not rise to that standard.
When determining whether an arbitration award is
so tainted by fraud that its recognition would violate
U.S. public policy under Article V(2)(b) of the New
York Convention, courts have applied the threeprong test used to determine whether an award
should be vacated as fraudulently obtained under
Section 10(a) of the FAA.7 Under this test:
(1) the movant must establish the fraud
by clear and convincing evidence; (2) the
fraud must not have been discoverable
upon the exercise of due diligence before
or during the arbitration; and (3) the
person challenging the award must
show that the fraud materially related
to an issue in the arbitration.
Karaha Bodas Co. v. Perusahaan Pertambangan
Minyak Dan Gas Bumi Negara, 364 F.3d 274, 306
(5th Cir. 2004), citing Bonar v. Dean Witter Reynolds,
Inc., 835 F.2d 1378, 1383 (11th Cir.1988) (collecting
cases applying the three-prong test under Section
10(a) of the FAA).
Respondent complains that this Court placed
undue emphasis on whether the fraud affected the
outcome when it applied this test, and it states that
“federal courts of appeals have held that . . . ‘it is not
necessary to establish that the result of the
arbitration would have been different if the fraud
7 Under 9 U.S.C. § 10(a)(1), courts may vacate an arbitral

award where “the award was procured by corruption, fraud, or
undue means.”

26a
had not occurred.’” Mot. for Recons. at 10, quoting
Karaha Bodas Co., 364 F.3d. at 306–07. 8 But a
review of the Court’s Order reveals that it did not
articulate or apply the standard recited by
respondent, and that the holding was consistent with
the well-established principle that a party seeking to
resist enforcement of an award on the basis of fraud
must demonstrate a connection between the alleged
fraud and the decision.
Although the D.C. Circuit has not clearly
articulated the materiality standard necessary to
vacate or deny enforcement of an arbitral award due
to fraud, the nexus requirement has been widely
recognized in the appellate courts, including in the
cases cited by respondent. See Odeon Capital Grp.
LLC, 864 F.3d at 196 (“petitioner must demonstrate
a nexus between the alleged fraud and the decision
made by the arbitrators”); Envtl. Barrier Co., LLC,
540 F.3d at 608 (“[the court] must find a nexus
between the purported fraud and the arbitrator’s
final decision”); Forsythe Int’l, S.A. v. Gibbs Oil Co. of
Tex., 915 F.2d 1017, 1022 (5th Cir. 1990) (“requiring
8 While some courts have used that language, see, e.g., Odeon

Capital Grp. LLC v. Ackerman, 864 F.3d 191, 196 (2d Cir. 2017)
(“For fraud to be material . . . petitioner must demonstrate a
nexus between the alleged fraud and the decision made by the
arbitrators, although petitioner need not demonstrate that the
arbitrators would have reached a different result.”); Bonar, 835
F.2d at 1383 (holding that the legal standard “does not require
the movant to establish that the result of the proceedings would
have been different had the fraud not occurred”), at least one
circuit has questioned its logic. Envtl. Barrier Co., LLC v.
Slurry Sys., Inc., 540 F.3d 598, 608 (7th Cir. 2008) (expressing
skepticism over the “odd proposition that something might be
material to an issue in an arbitration, but immaterial to the
outcome”).

27a
a nexus between the alleged fraud and the basis for
the panel’s decision”).
Courts in this district have consistently looked for
proof of a nexus as well. As one court on this district
summarized:
Courts in this District have . . .
demanded proof that the misconduct or
fraud had some bearing on the
arbitrator's final decision. See Owen–
Williams v. BB & T Inv. Servs., Inc.,
717 F. Supp. 2d at 17–18 (D.D.C. 2010)
(finding that even if party had made
fraudulent misrepresentations in order
to secure delay in arbitral proceedings,
no proof that this changed outcome of
arbitration and so conduct was
immaterial); Pigford v. Johanns, 421 F.
Supp. 2d 130, 135 (D.D.C. 2006)
(unethical misrepresentation as to
counsel’s bar status not enough to
satisfy nexus requirement because no
showing that it led to different result);
Bryson v. Gere, 268 F. Supp. 2d 46, 50
(D.D.C. 2003) (movant must prove that
substantial
misconduct
actually
prejudiced outcome of arbitration).
ARMA, S.R.O. v. BAE Sys. Overseas, Inc., 961 F.
Supp. 2d 245, 255 (D.D.C. 2013).
So, even applying the case law identified by
respondent, which recites the broadly recognized
principle that a party seeking to invalidate an award
based on fraud must be able to point to at least some
connection between the complained-of fraud and the
decision, the Court did not err in its initial ruling.

28a
C. Respondent’s alternate argument does not
support reconsideration.
Respondent complains that the Court’s May 11,
2016, Order “did not address Kazakhstan’s alternate
argument” that respondent was “denied the
opportunity to present its case” before the arbitral
panel because it had to “respon[d] to fraudulent
evidence,” and that this constitutes an independent
ground on which to deny enforcement of the arbitral
award under Article V(1)(b) of the New York
Convention. Mot. for Recons. 11–12. While the
Court’s Order did not expressly address respondent’s
alternate argument under Art. V(1)(b) of the
Convention, its conclusion that the evidence of
alleged fraud that respondent sought to introduce
was immaterial, disposed of this alternate argument,
and thus, reconsideration on this ground is also
unwarranted. Moreover, the arbitrators’ decision
reflects that respondent presented expert valuations
of its own, and that it had a full and fair opportunity
to present its case to the tribunal.
D.

Reconsideration
justice.

is

not

required

by

In the end, respondent has not established that
reconsideration of the Court’s May 11, 2016, Order is
“required by justice” under Federal Rule of Civil
Procedure 54(b). Capitol Sprinkler Inspection, Inc.,
630 F.3d at 227. This is particularly true since
Kazakhstan does not deny that it had an opportunity
to litigate the very issues it belatedly seeks to raise
here in the jurisdiction where the arbitration took
place. While the Court acknowledges that the legal
standards to be applied in each situation are
different, the fact that the Svea Court of Appeal
heard and rejected respondent’s fraud claims, and

29a
that its ruling was upheld by the Swedish Supreme
Court, lends force to this Court’s view that it would
not be contrary to the public policy of the United
States, and it would not violate this country’s “most
basic notions of morality and justice,” see Belize Bank
Ltd., 852 F.3d at 1111, to let the Court’s May 11,
2016, Order stand and decline to hear the evidence
again in the limited context of this enforcement
proceeding. In other words, there is a difference
between enforcing an award that is alleged to be
tainted by fraud that has never been addressed and
enforcing an award after the jurisdiction that issued
it has heard and rejected the allegations. As noted
earlier, the public policy defense is “construed
narrowly” Enron Nigeria Power Holding, Ltd., 844
F.3d at 289, and this heavy burden exists precisely
because the public policy exception is not an
invitation to re-try valid, final arbitral awards.
In sum, “[t]he Supreme Court has recognized an
‘emphatic federal policy in favor of arbitral dispute
resolution.’” TermoRio S.A. E.S.P., 487 F.3d at 933,
quoting Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc., 473 U.S. 614, 631 (1985). And since
the United States became a signatory of the New
York Convention in 1970, “that federal policy applies
with special force in the field of international
commerce.” Id., quoting Mitsubishi Motors Corp., 473
U.S. at 631. This framework militates against reexamining the award and conducting a “mini-trial”
on a substantive issue in the arbitration, especially
in the context of a motion for reconsideration of a
prior ruling of this Court.
II. THE PETITION
ARBITRAL AWARD

TO

CONFIRM

STANDARD OF REVIEW

THE

30a
Under the FAA, a district court “shall confirm the
[arbitral] award unless it finds one of the grounds for
refusal or deferral of recognition or enforcement of
the award specified in the [New York] Convention.” 9
U.S.C. § 207. “Consistent with the ‘emphatic federal
policy in favor of arbitral dispute resolution’
recognized by the Supreme Court . . . the FAA
affords the district court little discretion in refusing
or deferring enforcement of foreign arbitral awards.”
Belize Soc. Dev. Ltd. v. Gov’t of Belize, 668 F.3d 724,
727 (D.C. Cir. 2012), quoting Mitsubishi Motors
Corp., 473 U.S. at 631. As noted earlier, courts “may
refuse to enforce the award only on the grounds
explicitly set forth in Article V of the Convention.”
TermoRio S.A. E.S.P., 487 F.3d at 935, quoting Yusuf
Ahmed Alghanim & Sons, 126 F.3d at 23; see also
Int’l Trading & Indus. Inv. Co. v. DynCorp Aerospace
Tech., 763 F. Supp. 2d 12, 19 (D.D.C. 2011)
(collecting cases).
Because “the New York Convention provides only
several narrow circumstances when a court may
deny confirmation of an arbitral award, confirmation
proceedings are generally summary in nature.” Int’l
Trading, 763 F. Supp. 2d at 20, citing Zeiler v.
Deitsch, 500 F.3d 157, 167 (2d Cir. 2007). The party
resisting confirmation bears the heavy burden of
establishing that one of the grounds for denying
confirmation in Article V applies. See New York
Convention, art. V; Imperial Ethiopian Gov’t v.
Baruch-Foster Corp., 535 F.2d 334, 336 (5th Cir.
1976); see also Ottley v. Schwartzberg, 819 F.2d 373,
376 (2d Cir. 1987) (“[T]he showing required to avoid
summary confirmation is high.”).
The New York Convention provides seven
exemptions to recognition and enforcement of an

31a
arbitral award. New York Convention, art. V(1)–(2).
Respondent contends that the arbitration agreement
is unenforceable under four of them: Article V
sections 1(a), (b), (d), and 2(b).
ANALYSIS
A.

Article V(1)(a) of the
Convention is inapplicable.

New

York

Respondent argues first that the arbitral award is
unenforceable under Article V(1)(a) of the New York
Convention because petitioners failed to comply with
a requirement in the Energy Charter Treaty that
there be a three-month settlement period prior to the
initiation of the arbitration. Resp’t’s Opp. at 27–35.
Under Article V(1)(a) of the New York Convention,
an award may be refused if the “agreement is not
valid under the law to which the parties have
subjected it or, failing any indication thereon, under
the law of the country where the award was made.”
New York Convention, art. V(1)(a).
The ECT, to which Kazakhstan is a signatory,
provides that if a dispute cannot be solved “within a
period of three months from the date on which either
party to the dispute requested amicable settlement,
the Investor party to the dispute may choose to
submit it for resolution” before an international
arbitration. ECT, art. 26(2)–(3)(a). This provision is
referred to by the parties as the “cooling-off period.”
Respondent claims that this requirement was a
jurisdictional prerequisite to the tribunal’s authority.
Resp’t’s Opp. at 28. It asserts that the SCC’s failure
to enforce the cooling-off period prior to the
arbitration means that Kazakhstan “made no valid
offer to [p]etitioners to arbitrate and certainly did
not consent to arbitrate” even though Kazakhstan

32a
participated in the arbitration for nearly three years.
Id. at 27.
The
Court’s
prior
Memorandum
Opinion
concerning its subject matter jurisdiction in this case
addressed the arguments brought by respondent
under this defense. Stati, 199 F. Supp. 3d at 184–90.
Based on the language of the ECT, the Court
concluded that Kazakhstan gave its unconditional
consent to arbitrate subject only to two exceptions
that do not relate to the cooling-off period. The Court
reasoned:
While it does appear that the
contractual requirement to attempt to
come to a negotiated resolution is
mandatory [under the ECT], that
provision does not serve as a condition
precedent to the contracting parties’
consent to international arbitration.
Article 26(3)(a) of the ECT specifies:
“[s]ubject only to subparagraphs (b) and
(c), each Contracting Party hereby gives
its unconditional consent to the
submission of a dispute to international
arbitration or conciliation in accordance
with the provisions of this Article.” Id.
at 29-30, art. 26(3)(a) (emphasis added).
Although respondent is correct that
article 26(3) requires arbitration to
proceed in accordance with article 26’s
provisions, including the three-month
settlement period, the international
arbitration provision does not act as a
condition precedent to a party’s consent,
which
is
“[s]ubject
only
to
subparagraphs (b) and (c).

33a
Id. at 185–86. Accordingly, the Court ruled that the
cooling-off period is a procedural requirement under
the ECT, not a jurisdictional one.9 Id. at 188. Under
the Supreme Court’s precedent “such procedural
prerequisites are for the tribunal, not the Court, to
interpret and apply.” Id. at 189, citing BG Grp., PLC
v. Republic of Argentina, 134 S. Ct. 1198, 1207
(2014). Therefore, this Court deferred to the
tribunal’s conclusion that the procedural hurdle had
been satisfied, and found that there was a valid
agreement to arbitrate between the parties. Id.; see
also Award ¶ 830.
The Court sees no reason to depart from its prior
ruling. In BG Grp., PLC the Supreme Court analyzed
whether a precondition in an investment treaty
between Argentina and the United Kingdom was
procedural or jurisdictional in nature. 134 S. Ct.
1198. In that case, the provision required a claimant
to submit a dispute to a local court and allow 18
months to lapse without a decision before submitting
the dispute to arbitration. Argentina alleged that the
arbitrators did not have jurisdiction because BG
Group initiated arbitration without waiting the
requisite 18 months. Id. at 1205. The Supreme Court
found that the eighteen-month provision was
procedural, not jurisdictional in nature, because it
governed when the duty to arbitrate arose, rather
than whether the duty existed at all. Id. at 1207. As
a result, the Court held that satisfaction of the
condition was for the arbitrators to decide, not the
courts, because parties “normally expect a forum9 The SCC tribunal also concluded that the cooling-off period

was a procedural requirement, rather than a jurisdictional one,
based on the express language of Article 26 of the ECT. Award
¶ 829.

34a
based decision-maker to decide forum-specific
procedural gateway matters.” Id., quoting Howsam v.
Dean Witter Reynolds, Inc., 537 U.S. 79, 86 (2002).10
Respondent’s separate defense under Article(1)(a)
is equally unavailing. It argues that the tribunal
lacked jurisdiction over petitioner Terra Raf Trans
Traiding Ltd. (“Terra Raf”) because it did not qualify
as an “investor” under the ECT, and therefore that
petitioner cannot seek to enforce the award. Resp’t’s
Opp. 58–59.
Petitioner Terra Raf is a limited liability company
incorporated and located in Gibraltar, a territory
controlled by the United Kingdom. Resp’t’s Opp. 58;
Pet. ¶ 5. Half of the company is owned by petitioner
Anatolie Stati, and the other half is owned by his
son, petitioner Gabriel Stati. Pet. ¶¶ 2–5.
10 The Court also notes that the tribunal’s decision is worthy

of deference given respondent’s own actions during the
arbitration proceedings. On January 18, 2011, Kazakhstan sent
a letter to the SCC objecting to petitioners’ failure to await the
expiration of the three-month period, and it proposed a stay of
the arbitration to cure the defect. Ex. 26 to Resp’t’s Opp. [Dkt. #
20-26] at 1. Specifically, Kazakhstan proposed that:
[T]he Tribunal order Claimants to engage in
amicable settlement discussions as required by
Article 26 of the ECT, and that the proceedings
be suspended during the three-month period in
satisfaction of that jurisdictional requirement . .
.
notwithstanding
the
fact
that
this
jurisdictional defect could result in dismissal
after full briefing and hearing on the merits.
Id. at 3. With the consent of both parties, the tribunal granted
the stay on February 22, 2011. Award ¶ 830. Because
respondent proposed and obtained a means to cure the alleged
procedural deficiency, its claim that the initial failure to wait
still invalidates the arbitration is not persuasive.

35a
Respondent argues that because Gibraltar is not a
party to the ECT, Terra Raf does not qualify as an
“investor” under the treaty, and therefore,
Kazakhstan was not bound by a valid agreement to
arbitrate with the company. Resp’t’s Opp. 58–59.
Respondent raised this argument before the
tribunal. Award ¶¶ 733–38. The tribunal rejected it,
finding that the ECT provides protections to
investors from Gibraltar because Gibraltar is part of
the “European Community,” which is a party to the
ECT. Id. ¶ 746. The Court finds no reason to secondguess the tribunal’s conclusion since respondent
itself acknowledges that “both the United Kingdom
and the European Union are signatories of the ECT,”
Resp’t’s Opp. at 58, and the Court’s review is
“extremely limited.” Kurke v. Oscar Gruss & Son,
Inc., 454 F.3d 350, 354 (D.C. Cir. 2006); see also
Misco, Inc., 484 U.S. at 38. (“Courts thus do not sit to
hear claims of factual or legal error by an arbitrator
as an appellate court does in reviewing decisions of
lower courts.”).
B.

Article V(1)(b) of the
Convention is inapplicable.

New

York

Respondent contends that the Court should reject
confirmation of the award because it was not given
adequate notice to appoint an arbitrator. Resp’t’s
Opp. at 36–48. Article V(1)(b) of the New York
Convention authorizes a court to refuse recognition
and enforcement of an award if “the party against
whom the award is invoked was not given proper
notice of the appointment of the arbitrator, or of the
arbitration proceeding or was otherwise unable to
present his case.” Article V(1)(b) “essentially
sanctions the application of the forum state’s
standards of due process.” Iran Aircraft Indus. v.

36a
Avco Corp., 980 F.2d 141, 145–46 (2d Cir. 1992),
quoting Parsons & Whittemore Overseas Co. v.
Societe Generale De L’Industrie Du Papier (Rakta),
508 F.2d 969, 975 (2d Cir. 1974).
1. The SCC’s notices to respondent.
As noted earlier, on July 26, 2010, petitioners
submitted a formal Request for Arbitration to the
Stockholm Chamber of Commerce, claiming that
Kazakhstan’s actions violated its obligations under
the Energy Charter Treaty, to which Kazakhstan is a
signatory. Pet. ¶ 21. In its Request for Arbitration,
petitioners proposed that the dispute be resolved by
a tribunal composed of three arbitrators, with each
party nominating one. Req. for Arb ¶¶ 111–12.
Petitioners also proposed to Kazakhstan that the two
party-appointed arbitrators select a chairman for the
panel, and that if they could not agree, that the SCC
would appoint the chairman pursuant to the SCC
Arbitration Rules. Id. ¶ 113.
On August 5, 2010, the SCC Secretariat forwarded
petitioners’ Request for Arbitration to Kazakhstan by
courier and attached its own cover letter which
requested an answer from Kazakhstan by August 26,
2010. Ex. 2 to Resp’t’s Opp. [Dkt. # 20-3] at 2 (“First
Notification”). The SCC letter explained, “[i]n
accordance with Article 5 of the SCC Rules, you are
requested to submit an Answer to the SCC,” and
indicated that the Answer “shall contain comment on
the seat of arbitration and on the proposition of the
Claimants that the Chairperson be selected by the
party-appointed arbitrators.” Id. The Kazakh
Ministry of Justice received the SCC’s letter on
August 9, 2010, but it did not respond. Ex. 3 to
Resp’t’s Opp. [Dkt. # 20-4] at 2–3; Resp’t’s Opp. at 22.

37a
On August 27, 2010, having not received an
Answer, the SCC Secretariat sent a second letter by
courier to Kazakhstan, extending the deadline. Ex. 4
to Resp’t’s Opp. [Dkt. # 20-5] (“Second Notification”).
The second letter requested that Kazakhstan
“submit an Answer in accordance with Article 5” by
September 10, 2010 “at the latest,” and it warned
that “failure to submit an Answer does not prevent
the arbitration from proceeding.” Id. Kazakhstan
received the second letter on August 31, 2010, but
again, it did not respond by the deadline. Resp’t’s
Opp. at 22.
On September 13, 2010, three days after the
extended deadline to submit an Answer had passed,
petitioners submitted a request to the SCC to
appoint an arbitrator on behalf of Kazakhstan
pursuant to Article 13(3) of the SCC rules. Ex. 6 to
Resp’t’s Opp. [Dkt. # 20-7]. Although the SCC
Secretariat forwarded the request to Kazakhstan on
that day, the request was not delivered to the
Kazakh Ministry of Justice until September 23, 2010
because it was sent by registered mail rather than by
courier. See Ex. 7 to Resp’t’s Opp. [Dkt. # 20-8];
Resp’t’s Opp. 22. The SCC appointed an arbitrator on
behalf of Kazakhstan on September 20, 2010, three
days before Kazakhstan received petitioners’
forwarded request. Ex. 8 to Resp’t’s Opp. [Dkt. # 209].
On September 23, 2010, the SCC Secretariat issued
a letter to the parties notifying them that the SCC
had appointed Professor Lebedev as the arbitrator on
behalf of Kazakhstan. Ex. 9 to Resp’t’s Opp. [Dkt. #
20-10]. The letter further noted that the
“Chairperson will be appointed shortly.” Id.
Kazakhstan received the letter via courier on

38a
September 27, 2010. Ex. 10 to Resp’t’s Opp. [Dkt. #
20-11].
Approximately two months later, on December 2,
2010, respondent objected through its counsel to the
SCC’s appointment of Professor Lebedev and
requested an opportunity to appoint its own
arbitrator. Ex. 15 to Resp’t’s Opp. [Dkt. # 20-16].
Kazakhstan argued that it had not been given
sufficient time to select an arbitrator due in part to
bureaucratic hurdles involving the allocation of state
funds for legal services and language barriers. Id.11
Petitioners opposed respondent’s request, arguing
that respondent failed to invoke any of the grounds
for challenging an arbitrator set forth in the SCC
Arbitration Rules, which pertain to impartiality,
independence, or lack of qualifications. Ex. 17 to
Resp’t’s Opp. [Dkt. # 20-18]. On December 15, 2010,
the SCC Board found no grounds to disqualify the
arbitrator and dismissed Kazakhstan’s challenge.
Ex. 18 to Resp’t’s Opp. [Dkt. # 20-19].
2. Respondent received proper notice.
“Due process requires notice reasonably calculated,
under all the circumstances, to apprise interested
parties of the pendency of the action and afford them
an opportunity to present their objections.” Crooks v.
Mabus, 845 F.3d 412, 423 (D.C. Cir. 2016), quoting
Reeve Aleutian Airways, Inc. v. United States, 982
F.2d 594, 599 (D.C. Cir. 1993) (internal quotation
marks omitted). A notice “must be of such a nature
as reasonably to convey the required information,
and it must afford a reasonable time for those
11 See also Resp’t’s Opp. at 20. But respondent does not

elaborate on how language issues interfered with its ability to
respond or to make a timely request for additional time.

39a
interested to make their appearance.” Mullane v.
Cent. Hanover Bank & Trust Co., 339 U.S. 306, 314–
15 (1950). This standard was satisfied by the two
letters sent by the SCC dated August 5, 2010, and
August 27, 2010.
Respondent does not dispute that it received the
two SCC letters. Instead it argues that the content of
the communications was inadequate because the
letters did not state explicitly that Kazakhstan was
supposed to appoint an arbitrator by a specific
deadline. Resp’t’s Opp. at 16–17, 40. This is not
borne out by the documents themselves.
The first SCC letter dated, August 5, 2010, stated:
In accordance with Article 5 of the SCC
Rules, you are requested to submit and
Answer to the SCC, by 26 August 2010
at the latest.12
First Notification at 2. Article 5(1)(v) of the SCC
Arbitration Rules provides that an Answer:
Shall include . . . if applicable, the
name, address, telephone number,
facsimile number and e-mail address of
the arbitrator appointed by Respondent.
Ex. 1 to Resp’t’s Opp. [Dkt. # 20-2] (“SCC Arbitration
Rules”) at 7. So the notice plainly informed
respondent of the date by which it was to name an
arbitrator. In the event there was any ambiguity
about that, the SCC included two attachments with
the letter: the Arbitration Rules and petitioners’
12 The letter went on: “Your Answer shall contain comment

on the seat of arbitration and on the proposition of the
Claimants that the Chairperson be selected by the partyappointed arbitrators.” First Notification at 2.

40a
Request for Arbitration, which laid out petitioner’s
proposal on how to constitute the tribunal. Id.; Req.
for Arb. ¶¶ 111–12.
Furthermore, Article 5(3) establishes that,
“[f]ailure by the [r]espondent to submit an Answer
shall not prevent the arbitration from proceeding.”
SCC Arbitration Rules at 8. Both provisions were
plainly applicable in this situation and the Court
finds that the first letter along with its attachments
reasonably put respondent on notice of its obligation
to submit an Answer and proffer an arbitrator.
Furthermore, the respondent received a second
opportunity to be heard, when the SCC sent a second
notification and extended its deadline. In the second
letter, the SCC again directed respondent to “submit
an Answer in accordance with Article 5 of the SCC
Rules” and warned that “failure to submit an Answer
does not prevent the arbitration from proceeding.”
Second Notification at 2.
Faced with respondent’s failure to respond, the
SCC Board reasonably went ahead and appointed an
arbitrator on respondent’s behalf as it is permitted to
do under the SCC’s default rules. Under Article 12 of
the SCC rules, “[w]here the parties have not agreed
on the number of arbitrators, the Arbitral Tribunal
shall consist of three arbitrators . . . .” SCC
Arbitration Rules at 9. Article 13(1) of the SCC
Arbitration Rules allows the SCC to set the time
period by which to appoint an arbitrator if the
parties have not agreed to a time period. Id. And
Article 13(3) further provides that “[w]here a party
fails to appoint an arbitrator(s) within the stipulated
time period, the Board shall make the appointment.”
Id. at 10.

41a
Respondent later chose to object to the
appointment of its arbitrator and the SCC took its
arguments into consideration, along with petitioners’
objections, and found that there were no grounds on
which to disqualify the arbitrator appointed on
behalf of respondent. Ex. 18 to Resp’t’s Opp. [Dkt. #
20-19].
Thus, the Court finds that respondent was
“reasonably” informed of the proceeding and its
obligation to appoint an arbitrator and given an
“opportunity to be heard.” Mullane, 339 U.S. at 314.
Respondent’s inability to appoint its arbitrator was
not due to a lack of notice but rather a lack of timely
participation on its part. See Bernstein Seawell &
Kove v. Bosarge, 813 F.2d 726, 729 (5th Cir. 1987)
(“[D]ue process is not violated if the hearing proceeds
in the absence of one of the parties when the party’s
absence is the result of his decision not to attend.”).
Respondent argues in the alternative that 32 days
was simply not enough time to appoint an arbitrator
and that this time period “constitutes a substantial
deviation from the norm of international
arbitration.” Resp’t’s Opp. at 46–47. Respondent
never sought an extension of time and the SCC gave
it additional time on its own initiative. Moreover, the
Court finds that the amount of time was reasonable
particularly since the parties agreed to conduct the
arbitral proceedings under the SCC rules, and
respondent does not claim that the 32 day timeframe
was inconsistent with those rules.
Given all of these reasons, the Court finds that
respondent received “proper notice of the
appointment of the arbitrator” and it rejects its
defenses under Article V(1)(b) of the New York
Convention.

42a
C.

Article V(1)(d) of the New
Convention is inapplicable.

York

Next, respondent asserts that that the arbitral
award is unenforceable under Article V(1)(d) of the
New York Convention which allows a court to deny
enforcement of an arbitral award if:
[T]he composition of the arbitral
authority or the arbitral procedure was
not in accordance with the alleged
agreement of the parties, or, failing
such agreement, was not in accordance
with the law of the country where the
arbitration took place.
New York Convention, art. V(1)(d).
Respondent makes three arguments under this
provision, two of which simply repeat prior
arguments. First, respondent argues that the SCC
failed to comply with its own rules relating to the
appointment of arbitrators. Second, it asserts that
the SCC failed to enforce the cooling-off period as it
was required to do under the ECT. Last, it maintains
that the tribunal committed other procedural errors
relating to the admission and weight of evidence
during the proceeding.
The Court has already addressed the first two
points in Sections II.A–B and finds that the same
reasoning applies here. The Court finds that the SCC
did not violate its rules when it appointed an
arbitrator on respondent’s behalf. The rules plainly
allow for the SCC to do so when, as here, a party
fails to appoint an arbitrator by the set deadline.
And a party’s failure to respond does not halt the
proceedings, including the appointment of the
arbitrator. As to the cooling-off period, the Court

43a
defers to the tribunal’s conclusion that this
procedural requirement was satisfied when the
tribunal imposed a three-month stay at respondent’s
request. Furthermore, the Court notes that when a
“party’s challenge involves an application of the
arbitral institution’s own rules, courts typically have
deferred to the arbitral panel’s interpretation of
them.” Belize Bank Ltd., 191 F. Supp. 3d at 37, citing
York Research Corp. v. Landgarten, 927 F.2d 119,
123 (2d Cir.1991).
Respondent also complains that the tribunal
committed three types of procedural errors:
(1) ignoring the submission of expert
evidence and other evidence regarding
almost every major disputed issues of
the case; (2) failing to consider
Kazakhstan’s objections that certain
deductions would need to be made from
any eventual award to [p]etitioners; and
(3) going beyond the submissions of the
[p]arties and ignoring the [p]arties’
submissions and the applicable law on
multiple occasions.
Resp’t’s Opp. at 53–54. But respondent points to only
one example of these alleged irregularities. It argues
that the testimony of one of its expert witnesses on
the value of the LPG plant was not afforded
sufficient weight in deciding the amount of the
award. Id. at 55–56.
This is not a basis to decline to enforce the award.
It is not for this Court, given its limited scope of
review, to second-guess the tribunal’s weighing of
evidence. Respondent’s invitation to re-try the merits
of the arbitration undermines the very purpose of the

44a
New York Convention. See TermoRio S.A. E.S.P., 487
F.3d at 934, quoting Mitsubishi Motors Corp., 473
U.S. at 639 (“The utility of the [New York]
Convention in promoting the process of international
commercial arbitration depends upon the willingness
of national courts to let go of matters they normally
would think of as their own.”); see also Bosack v.
Soward, 586 F.3d 1096, 1105 (9th Cir. 2009) (“[The
court] ‘ha[s] no authority to re-weigh the evidence’
presented to the arbitration panel.”) (citations
omitted).
The Court finds that the tribunal acted within its
authority when it chose to disregard both parties’
experts, and to instead value the LPG plant using a
contemporaneous third-party bid. See Slaney v. The
Int’l Amateur Athletic Fed’n, 244 F.3d 580, 592 (7th
Cir. 2001), quoting Generica Ltd. v. Pharm. Basics,
Inc., 125 F.3d 1123, 1130 (7th Cir. 1997) (“The extent
of an arbitrator’s latitude is such that an “arbitrator
is not bound to hear all of the evidence tendered by
the parties . . . [H]e must [merely] give each of the
parties to the dispute an adequate opportunity to
present its evidence and arguments.”). Based on the
single example that respondent provides, it is
apparent that the issue is not that respondent was
not given an adequate opportunity to be heard but
rather that it takes issue with the result. This is
precisely what the Court is not allowed to consider in
an enforcement proceeding under the New York
Convention.
D.

Article V(2)(b) of the New
Convention is inapplicable.

York

Finally, respondent argues again, this time under
Article V(2)(b) of the New York Convention, that the
arbitral award is unenforceable because it was not

45a
given notice of its opportunity to appoint its
arbitrator. Article V(2)(b) of the New York
Convention prevents the enforceability of an arbitral
award when the arbitral award “would be contrary to
the public policy” of the country where enforcement
is sought, Belize Bank Ltd., 852 F.3d at 1110–11,
quoting New York Convention, art. V(2)(b), and
respondent asserts that the lack of notice
contravenes public policy in the United States. As
noted earlier, “[t]he public-policy exception under the
New York Convention is construed narrowly and
applied ‘only where enforcement would violate the
forum state’s most basic notions of morality and
justice.’” Chevron Corp. v. Republic of Ecuador, 949
F. Supp. 2d 57, 69 (D.D.C. 2013), quoting Parsons,
508 F.2d at 974; see also TermoRio S.A. E.S.P., 487
F.3d at 938. Since the Court has already concluded
that
respondent
received
adequate
notice,
respondent has certainly not met this high burden.
CONCLUSION
For the reasons set forth above, respondent’s
motion for reconsideration pursuant to Federal Rule
of Civil Procedure 54(b) is denied. It is further
ordered that the petition to confirm the arbitral
award is granted because none of the grounds for
refusal or deferral of the award set forth in the New
York Convention apply. A separate order will issue.
/s/ Amy Berman Jackson
AMY BERMAN JACKSON
United States District Judge
DATE: March 23, 2018

46a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)

ANATOLIE STATI;
GABRIEL STATI;
ASCOM GROUP, S.A.;
TERRA RAF TRANS
TRAIDING LTD.,

)
)
)
)

Petitioners,

)

v.

)

REPUBLIC OF
KAZAKHSTAN,

Civil Action No. 141638 (ABJ)

)

Respondent.

)
ORDER

Pursuant to Federal Rules of Civil Procedure 54(b)
and 58, and for the reasons stated in the
accompanying Memorandum Opinion, it is hereby
ORDERED
that respondent’s Motion for
Reconsideration of the Court’s May 11, 2016, Order
[Dkt. # 37] is DENIED. It is FURTHER
ORDERED
that petitioners’ Petition to Confirm the Arbitral
Award [Dkt. # 1] is GRANTED. This is a final and
appealable order.
SO ORDERED.
/s/ Amy Berman Jackson
AMY BERMAN JACKSON
United States District Judge
DATE: March 23, 2018

47a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ANATOLIE STATI, et
al.,
Petitioners,
v.
REPUBLIC OF
KAZAKHSTAN,
Respondent.

)
)
)
)
)

Civil Action No. 141638 (ABJ)

)
)
ORDER

On September 30, 2014, petitioners Anatolie Stati,
Gabriel Stati, Ascom Group, S.A., and Terra Raf
Trans Traiding Ltd., filed a petition to confirm a
December 19, 2013 arbitration award that they
obtained against respondent, the Republic of
Kazakhstan, related to Kazakhstan’s alleged
violation of the Energy Charter Treaty. Pet. to
Confirm Arbitral Award [Dkt. # 1] (“Pet.”) ¶¶ 34, 36;
Arb. Award [Dkt. # 2-1, 2-2, 2-3, 2-4] (“Award”). The
petition to confirm the arbitration award is fully
briefed, and the Court has taken the matter under
advisement.
On April 5, 2016, respondent filed a motion for
leave to supplement the record and supply new
grounds for its opposition. Mot. by Resp’t for Leave to
Submit Additional Grounds in Supp. of Opp. to Pet.
[Dkt. # 32] (“Mot.”). In the absence of any authority
setting forth the standard to be applied to such a
motion, respondent references Federal Rule of Civil

48a
Procedure 15(d) “[b]y analogy.” Id. at 5. The rule
states: “[o]n motion and reasonable notice, the court
may, on just terms, permit a party to serve a
supplemental pleading setting out any transaction,
occurrence, or event that happened after the date of
the pleading to be supplemented.” Fed. R. Civ. P.
15(d).
The motion asserts that respondent has “new
evidence” that petitioners “obtained the [arbitration
award] through fraud.” Mot. at 4, 6. It explains that,
of the approximately $498 million awarded to the
petitioners, $199 million “represented compensation
for a liquefied petroleum gas plant (the ‘LPG Plant’).”
Mot. at 2. Respondent argues that the supplemental
evidence will prove that “Petitioners fraudulently
and materially misrepresented the LPG Plant
construction costs for which they claimed
reimbursement in the [arbitration].” Id. at 4.
Respondent has apparently obtained this “new
evidence” in connection with a proceeding it filed in
Sweden to set aside the arbitral award. Id. at 2–3.
Petitioners oppose the motion. They invoke the
principles that would apply when a party seeks to
amend a complaint and maintain that the proposed
amendments would be futile. Pet.’rs’ Mem. of P. & A.
in Opp. to Resp. Mot. [Dkt. # 34] at 5–10. Quoting
language from Rule 15(d), they also complain that
supplementing the record at this time will not foster
the economic and speedy disposition of the case, that
the motion was brought with undue delay, and that
it would cause undue prejudice. Id. at 10–13.
According to petitioners, respondent gained access to
the “new evidence” in June of 2015, and it presented
the same information to the Swedish court in
October of 2015, approximately six months before it

49a
sought leave to supplement its opposition here. Id. at
8, 12–13.
In its reply, respondent notes that when a court
assesses a proposed amendment to a pleading that
has been opposed on futility grounds, the court
considers whether the proposed amendment would
survive a motion to dismiss. Reply in Supp. of Mot.
[Dkt. # 35] at 1–4. It states that under that standard,
its motion should be granted. Id. at 3–4.
But the analogy does not quite fit. We are not
dealing with a proposed amended complaint here,
and it is not even petitioners who are seeking leave
to amend. Instead, respondent is seeking to add new
grounds to its opposition to the petition to confirm
the award, more than a year after the original
opposition was filed.
Neither party has cited any authority applying
Rule 15 to this type of proceeding. But the rule
respondent invoked is plainly discretionary (“the
court may”), and both Rule 15(d) and Rule 15(a)(2) –
the rule that would apply if a party was seeking to
amend a complaint at this juncture – turn on what is
“just” or whether “justice so requires.” Fed. R. Civ. P.
15(a)(2), (d).
Respondent argues that its supplemental
submission will prove that “[p]etitioners fraudulently
and materially misrepresented the LPG Plant
construction costs for which they claimed
reimbursement in the [arbitration].” Mot. at 4. But
the Court concludes that it would not be in the
interest of justice to broaden the scope of this
proceeding to consider whether petitioners did or did
not mislead the foreign arbitration panel when it
presented evidence related to the value of the plant

50a
in question. The Court has not come to any
conclusions about the legitimacy of the evidence
presented to the arbitrators on this issue. But it has
reviewed the arbitration award, and it is clear that
the arbitrators did not rely upon the allegedly
fraudulent evidence in reaching their decision, so
respondent’s proposed submissions would not be
germane to the petition to confirm the award.
In attempting to establish the value of the LPG
Plant and the costs incurred in constructing it, both
sides submitted testimony and expert reports. See
Award ¶¶ 1693–1711 (petitioners’ arguments); id. ¶¶
1712–42 (respondent’s arguments). But the
arbitrators ultimately declined to credit either set of
experts:
Regarding the value of damages caused
by Respondent’s action, the Tribunal
has taken note of the various extensive
arguments submitted by the Parties
relying on their respective experts’
reports.
However,
the
Tribunal
considers that it does not have to
evaluate these reports and the very
different results they reach. In the view
of the Tribunal, the relatively best
source for the valuation . . . are the
contemporaneous bids that were made
for the LPG Plant by third parties after
Claimants’ efforts to sell the LPG
Plant . . . .
Id. ¶ 1746. The panel concluded:
[T]he Tribunal considers it to be of
particular relevance that an offer was
made for the LPG Plant by state-owned

51a
KMG at that time for USD 199 million.
The Tribunal considers that to be the
relatively best source of information for
the valuation of the LPG Plant among
the various sources of information
submitted by the Parties regarding the
valuation for the LPG Plant during the
relevant period . . . . Therefore, this is
the amount of damages the Tribunal
accepts in this context.
Id. ¶¶ 1747–48.
Under those circumstances, and given the fact that
the issue has already been presented to the Swedish
authorities, it will not be in the interest of justice to
conduct a mini-trial on the issue of fraud here when
the arbitrators themselves expressly disavowed any
reliance on the allegedly fraudulent material. For
those reasons, it is hereby ORDERED that
respondent’s motion for leave to submit additional
grounds in support of its opposition to the petition to
confirm the arbitral award is DENIED.
The Court also notes that it has reviewed all of the
pleadings concerning subject matter jurisdiction. See
Min. Order (Oct. 21, 2015); Pet’rs’ Mem. of Law
Submitted in Accordance with the Court’s Order of
10/21/2015 [Dkt. # 30]; Resp’t’s Mem. on Subject
Matter Jurisdiction [Dkt. # 31]. It has concluded that
it has jurisdiction to consider the pending petition,
and it will set forth the reasons underlying that
determination in its opinion addressing the merits of
the petition. The Court has the matter under
advisement, and it will schedule a hearing on the
petition if and when it deems it necessary to do so.
SO ORDERED.

52a
/s/ Amy Berman Jackson
AMY BERMAN JACKSON
United States District Judge
DATE: May 11, 2016

53a
APPENDIX E

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-7047

September Term, 2018
1:14-cv-01638-ABJ
FILED ON: JUNE 4, 2019

Anatolie Stati, et al.,
Appellees
v.
Republic of Kazakhstan,
Appellant
BEFORE: Garland, Chief Judge; Henderson,
Rogers, Tatel, Griffith, Srinivasan,
Millett, Pillard, Wilkins, Katsas, and Rao,
Circuit Judges; Randolph, Senior Circuit
Judge.
ORDER
Upon consideration of appellant’s petition for
rehearing en banc, and the absence of a request by
any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

54a
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Ken R. Meadows
Deputy Clerk

55a
APPENDIX F

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-7047

September Term, 2018
1:14-cv-01638-ABJ
Filed On: June 4, 2019

Anatolie Stati, et al.,
Appellees
v.
Republic of Kazakhstan,
Appellant
BEFORE: Wilkins and Katsas, Circuit Judges;
Randolph, Senior Circuit Judge.
ORDER
Upon consideration of appellant’s petition for panel
rehearing filed on May 20, 2019, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Ken R. Meadows
Deputy Clerk

56a
APPENDIX G
New York Convention on the Recognition and
Enforcement of Foreign Arbitral Awards, Art.
V, June 10, 1958, 330 U.N.T.S. 38
1. Recognition and enforcement of the award
may be refused, at the request of the party against
whom it is invoked, only if that party furnishes to
the competent authority where the recognition and
enforcement is sought, proof that:
(a) The parties to the agreement referred to in
article II were, under the law applicable to them,
under some incapacity, or the said agreement is not
valid under the law to which the parties have
subjected it or, failing any indication thereon, under
the law of the country where the award was made; or
(b) The party against whom the award is invoked
was not given proper notice of the appointment of the
arbitrator or of the arbitration proceedings or was
otherwise unable to present his case; or
(c) The award deals with a difference not
contemplated by or not falling within the terms of
the submission to arbitration, or it contains decisions
on matters beyond the scope of the submission to
arbitration, provided that, if the decisions on matters
submitted to arbitration can be separated from those
not so submitted, that part of the award which
contains decisions on matters submitted to
arbitration may be recognized and enforced; or
(d) The composition of the arbitral authority or
the arbitral procedure was not in accordance with
the agreement of the parties, or, failing such
agreement, was not in accordance with the law of the
country where the arbitration took place; or

57a
(e) The award has not yet become binding on the
parties, or has been set aside or suspended by a
competent authority of the country in which, or
under the law of which, that award was made.
2. Recognition and enforcement of an arbitral
award may also be refused if the competent
authority in the country where recognition and
enforcement is sought finds that:
(a) The subject matter of the difference is not
capable of settlement by arbitration under the law of
that country; or
(b) The recognition or enforcement of the award
would be contrary to the public policy of that
country.

58a
APPENDIX H
9 U.S.C. § 207
§ 207. Award of arbitrators; confirmation;
jurisdiction; proceeding
Within three years after an arbitral award falling
under the Convention is made, any party to the
arbitration may apply to any court having
jurisdiction under this chapter for an order
confirming the award as against any other party to
the arbitration. The court shall confirm the award
unless it finds one of the grounds for refusal or
deferral of recognition or enforcement of the award
specified in the said Convention.

